<html>
<title> - THE OKLAHOMA CITY NATIONAL MEMORIAL</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                  THE OKLAHOMA CITY NATIONAL MEMORIAL

=======================================================================

                                HEARING

                               before the

            SUBCOMMITTEE ON NATIONAL PARKS AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

                               H.R. 1849

   TO ESTABLISH THE OKLAHOMA CITY NATIONAL MEMORIAL AS A UNIT OF THE 
  NATIONAL PARK SYSTEM, TO DESIGNATE THE OKLAHOMA CITY TRUST, AND FOR 
                             OTHER PURPOSES

                               __________

                    SEPTEMBER 9, 1997, WASINGTON, DC

                               __________

                           Serial No. 105-55

                               __________

           Printed for the use of the Committee on Resources


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 45-289 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director

                                 ------                                

            Subcommittee on National Parks and Public Lands

                    JAMES V. HANSEN, Utah, Chairman
ELTON, GALLEGLY, California          ENI F.H. FALEOMAVAEGA, American 
JOHN J. DUNCAN, Jr., Tennessee           Samoa
JOEL HEFLEY, Colorado                EDWARD J. MARKEY, Massachusetts
WAYNE T. GILCHREST, Maryland         NICK J. RAHALL II, West Virginia
RICHARD W. POMBO, California         BRUCE F. VENTO, Minnesota
HELEN CHENOWETH, Idaho               DALE E. KILDEE, Michigan
LINDA SMITH, Washington              FRANK PALLONE, Jr., New Jersey
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
JOHN B. SHADEGG, Arizona             ROBERT A. UNDERWOOD, Guam
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              WILLIAM D. DELAHUNT, Massachusetts
RICK HILL, Montana                   DONNA CHRISTIAN-GREEN, Virgin 
JIM GIBBONS, Nevada                      Islands
                                     RON KIND, Wisconsin
                                     LLOYD DOGGETT, Texas
                        Allen Freemyer, Counsel
                  P. Daniel Smith, Professional Staff
                    Liz Birnbaum, Democratic Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 9, 1997...................................     1

Statements of Members:
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho, prepared statement of......................    49
    Faleomavaega, Hon. Eni F.H., a Delegate in Congress from 
      American Samoa.............................................     3
        Prepared statement of....................................     4
    Hansen, Hon. James V., a Representative in Congress from the 
      State of Utah..............................................     1
        Prepared statement of....................................     2
    Istook, Hon. Ernest J., Jr., a Representative in Congress 
      from the State of Oklahoma.................................     9
        Prepared statement of....................................    10
    Lucas, Hon. Frank, a Representative in Congress from the 
      State of Oklahoma..........................................     5
        Prepared statement of....................................     8
    Watts, Hon. J. C., Jr., a Representative in Congress from the 
      State of Oklahoma, prepared statement of...................     7

Statements of witnesses:
    Butzer, Hans E., Designer, Oklahoma City Memorial Foundation 
      Design Team................................................    23
        Prepared statement of....................................    45
    Finnerty, Maureen, Associate Director for Park Operations and 
      Education, National Park Service...........................    14
        Prepared statement of....................................    41
    Johnson, Robert M., Chairman, Oklahoma City Memorial 
      Foundation.................................................    25
        Prepared statement of....................................    44
    Inhofe, Hon. James M., a Senator in Congress from the State 
      of Oklahoma, prepared statement of.........................     6
    Keating, Governor Frank, a State Senator from Oklahoma, 
      prepared statement of......................................     7
    Marrs, Gary B., Fire Chief, Oklahoma City, Oklahoma..........    37
        Prepared statement of....................................    48
    Norick, Ronald J., Mayor, Oklahoma City......................    24
        Prepared statement of....................................    43
    Pouland, John, Regional Administrator, Region 7, General 
      Services Administration....................................    16
        Prepared statement of....................................    42
    Rogers, Don, Former Building Manager, A.P. Murrah Federal 
      Building, Oklahoma City, Oklahoma..........................    36
        Prepared statement of....................................    47
    Welch, Emmett E. ``Bud'', Resident, Oklahoma City, Oklahoma..    34
        Prepared statement of....................................    46

Additional material supplied:
    Letter of Understanding......................................    71
    Murrah Federal Building Memorial Task Force, Memorial Mission 
      Statement..................................................    98
    Text of H.R. 1849............................................    51
    The Oklahoma City National Memorial..........................    66



HEARING ON: H.R. 1849, TO ESTABLISH THE OKLAHOMA CITY NATIONAL MEMORIAL 
 AS A UNIT OF THE NATIONAL PARK SYSTEM, TO DESIGNATE THE OKLAHOMA CITY 
                     TRUST, AND FOR OTHER PURPOSES

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 1997

        House of Representatives, Subcommittee on National 
            Parks and Public Lands, Committee on Resources, 
            Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m. in room 
1324, Longworth House Office Building, Hon. James V. Hansen 
(chairman of the subcommittee) presiding.

STATEMENT OF THE HONORABLE JAMES V. HANSEN, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Hansen. Good Morning. The Subcommittee on National 
Parks and Public Lands will come to order.
    Today we will receive testimony on H.R. 1849, The Oklahoma 
City National Memorial Act of 1997. The bill was introduced in 
the House of Representatives by our colleague, Mr. Lucas of 
Oklahoma, to establish the Oklahoma City National Memorial as a 
unit of the National Park System, to designate the Oklahoma 
City Memorial Trust, and for other purposes.
    H.R. 1849 recognizes the national impact and importance of 
the horrible act of domestic terrorism that occurred on April 
19, 1995, the bombing and destruction of the Alfred P. Murrah 
Federal Building in Oklahoma City, Oklahoma, resulting in the 
deaths of 168 men, women, and children. The incident and its 
aftermath brought the Nation together to respond to this 
assault on our governmental institutions and our people, but 
particularly to mourn with the thousands of families in 
Oklahoma City that were directly affected by the deaths of 
these 168 individuals, the injuries to hundreds of others who 
survived the blast, and the concerns of the entire Federal work 
force who felt they might still be targets in random terrorist 
attacks.
    [Bill H.R. 1849 may be found at end of hearing.]
    Mr. Hansen. Today, we will hear testimony that will 
reaffirm the American Spirit. We will witness the courage of 
individuals directly affected by this tragedy, and be inspired 
by the approach that the citizens of Oklahoma have undertaken 
to encourage the passage of this legislation we are 
considering.
    There are many things of importance to say about this 
legislation, and as this hearing progresses this morning our 
distinguished witnesses will convey the need for this Oklahoma 
City National Memorial. Significantly, the Memorial Mission 
Statement, developed by the 350-member Murrah Federal Building 
Memorial Task Force, will serve as the cornerstone to this 
hearing, and to the eventual dedication of the Oklahoma City 
National Memorial. It states, ``We come here to remember those 
who were killed, those who survived and those changed forever. 
May all who leave here know the impact of violence. May this 
Memorial offer comfort, strength, peace, hope and serenity.''
    We are aware that the National Park Service now supports 
the establishment of the Oklahoma City National Memorial as a 
unit of the National Park System, but continues to have strong 
reservations about the establishment of the Oklahoma City 
Memorial Trust. This Subcommittee is interested in assuring 
that this partnership among the Federal, state, and local 
governments and the private sector is fostered. This approach 
to funding, administration, and interpretation of the Oklahoma 
City National Memorial may well be a future model for the 
addition of some units to the National Park System. The 
Subcommittee is encouraged to know that the National Park 
Service and the Oklahoma City Memorial Foundation have 
discussed the possibility of signing a Cooperative Agreement to 
carry out the intent of H.R. 1849.
    I look forward to the testimony we will receive this 
morning. I will recognize Mr. Lucas as the first witness, after 
members of the Subcommittee have been recognized for any 
opening statements they may have.
    I recognize Mr. Faleomavaega, my distinguished colleague, 
the Ranking Member of this Subcommittee.
    [The statement of Mr. Hansen follows:]

 Statement of Hon. James V. Hansen, a Representative in Congress from 
                           the State of Utah

    Good Morning. The Subcommittee on National Parks and Public 
Lands will come to order.
    Today we will receive testimony on H.R. 1849, The Oklahoma 
City National Memorial Act of 1997. The bill was introduced in 
the House of Representatives by our colleague, Mr. Lucas of 
Oklahoma, to establish the Oklahoma City National Memorial as a 
unit of the National Park System, to designate the Oklahoma 
City Memorial Trust, and for other purposes.
    H.R. 1849 recognizes the national impact and importance of 
the horrible act of domestic terrorism that occurred on April 
19, 1995; the bombing and destruction of the Alfred P. Murrah 
Federal Building in Oklahoma City, Oklahoma, resulting in the 
deaths of 168 men, women, and children. The incident and its 
aftermath brought the Nation together to respond to this 
assault on our governmental institutions and our people, but 
particularly to mourn with the thousands of families in 
Oklahoma City that were directly affected by the deaths of 
these 168 individuals, the injuries to hundreds of others who 
survived the blast, and the concerns of the entire Federal work 
force who felt they might still be targets in random terrorist 
attacks.
    Today, we will hear testimony that will reaffirm the 
American Spirit. We will witness the courage of individuals 
directly affected by this tragedy, and be inspired by the 
approach that the citizens of Oklahoma have undertaken to 
encourage the passage of this legislation we are considering.
    There are many things of importance to say about this 
legislation, and as this hearing progresses this morning our 
distinguished witnesses will convey the need for this Oklahoma 
City National Memorial. Significantly, the Memorial Mission 
Statement, developed by the 350-member Murrah Federal Building 
Memorial Task Force, will serve as the cornerstone to this 
hearing, and to the eventual dedication of the Oklahoma City 
National Memorial. It states, ``We come here to remember those 
who were killed, those who survived and those changed forever. 
May all who leave here know the impact of violence. May this 
memorial offer comfort, strength, peace, hope and serenity.''
    We are aware that the National Park Service now supports 
the establishment of the Oklahoma City National Memorial as a 
unit of the National Park System, but continues to have strong 
reservations about the establishment of the Oklahoma City 
Memorial Trust. This Subcommittee is interested in assuring 
that this partnership among the Federal, state, and local 
governments and the private sector is fostered. This approach 
to funding, administration, and interpretation of the Oklahoma 
City National Memorial may well be a future model for the 
addition of some units to the National Park System. The 
Subcommittee is encouraged to know that the National Park 
Service and the Oklahoma City Memorial Foundation have 
discussed the possibility of signing a Cooperative Agreement to 
carry out the intent of H.R. 1849.
    We look forward to the testimony we will receive this 
morning. I will recognize Mr. Lucas as the first witness, after 
members of the Subcommittee have been recognized for any 
opening remarks.
    I recognize Mr. Faleomavaega, my distinguished colleague, 
the Ranking Member of this Subcommittee.

STATEMENT OF THE HONORABLE ENI F.H. FALEOMAVAEGA, A DELEGATE IN 
                  CONGRESS FROM AMERICAN SAMOA

    Mr. Faleomavaega. Thank you, Mr. Chairman. Mr. Chairman, 
and Members of our Subcommittee, along with the rest of the 
world, I stood in shocked silence on April 19, 1995, as I 
watched the TV news accounts of the bombing of the Alfred P. 
Murrah Federal Building in Oklahoma City. My first thoughts 
were for all the people in the building. At first, I saw people 
streaming out with little more than scrapes and bruises, 
thinking maybe the building was empty, or maybe the children in 
the day care center were at a city park far away. But seeing 
the destruction, my mind knew of the carnage that would be. The 
building was filled with people and about 168 innocent victims 
lost their lives. Just as we were trying to grasp the tragedy 
before us, we were forced to face the realization that this 
horrendous act was carried out by an American and the victims 
selected solely because they worked for the Federal Government.
    Mr. Chairman, this incident in Oklahoma City also 
demonstrated another forum of ugliness in our society today. 
The media was on a feeding frenzy and our investigative 
organizations immediately started targeting the homes and 
residences of Americans who happened to be of Arab descent. To 
think that any act of terrorism is to be associated with the 
Arab community is wrong. We should always guard against this 
kind of stereotyping and generalization.
    Mr. Chairman, my thoughts were then and continue to be with 
the families and friends of those killed or wounded in the 
blast. To lose a loved one under any circumstance is painful, 
but to have it happen through such a random and cowardice act 
must be almost unbearable. It is, therefore, extremely 
appropriate that a memorial be established at the scene of the 
attack and supported by the Federal Government.
    Mr. Chairman, in the interests of time, I would like to 
submit the remainder of my statement. I look forward to hearing 
from our witnesses, especially the gentleman from Oklahoma, my 
good friends and colleagues, Congressman Istook, who will be 
testifying this morning.
    [The statement of Mr. Faleomavaega follows:]

 Statement of Hon. Eni F.H. Faleomavaega, a Delegate in Congress from 
                    the Territory of American Samoa

    Mr. Chairman, and Members of our Subcommittee, along with 
the rest of the world, I stood in shocked silence on April 19, 
1995 as I watched the TV news accounts of the bombing of the 
Alfred P. Murrah Federal Building in Oklahoma City. My first 
thoughts were for all the people in the building. At first, I 
saw people streaming out with little more than scrapes and 
bruises, thinking maybe the building was empty, or maybe the 
children in the day care center were at a city park far away. 
But seeing the destruction, my mind knew of the carnage that 
would be. The building was filled with people and 168 innocent 
victims lost their lives. Just as we were trying to grasp the 
tragedy before us, we were forced to face the realization that 
this horrendous act was carried out by an American and the 
victims selected solely because they worked for the Federal 
Government.
    Mr. Chairman, this incident in Oklahoma City also 
demonstrated another forum of ugliness in our society today. 
The media was on a feeding frenzy and our investigative 
organizations immediately started targeting the homes and 
residences of Americans who are of Arab descent. To think that 
any act of terrorism is to be associated with the Arab 
community is wrong, and we should always guard against this 
kind of stereotyping and generalizations.
    My thoughts were then and continue to be with the families 
and friends of those killed or wounded in the blast. To lose a 
loved one under any circumstance is painful but to have it 
happen through such a random and cowardice act must be almost 
unbearable. It is, therefore, extremely appropriate that a 
memorial be established at the scene of the attack and 
supported by the Federal Government.
    I agree with the recommended themes developed by the 
memorial task force which spent a year talking and listening to 
people about a fitting memorial site. As recommended, the site 
should be a place of remembrance of both victims and survivors 
as individuals. It should bring peace to the visitor along with 
spirituality and hope. The cherished children need their own 
place within the memorial designed for their size and their 
ability to learn. Further, the memorial should be as a comfort 
to any visitor, and provide recognition for all those who 
responded to help those in need. Finally, the memorial needs to 
be a place of learning for all who visit so the tragedy is 
never to be forgotten.
    I want to welcome our colleagues who have come here to 
testify this morning including Frank Lucas who introduced the 
bill and Jim Inhofe and Ernest Istook who are here to speak 
about the legislation. I further welcome all the witnesses and 
especially those who traveled here from Oklahoma to be with us.
    Earlier this summer President Clinton congratulated Hans 
and Torrey Butzer on their winning design for the memorial. I 
look forward to hearing from them as well.
    It is clear that the intention is for this legislation to 
move swiftly through the house. A similar bill has already 
passed the Senate. I have been notified that this bill is 
already scheduled for full Committee mark up tomorrow. I 
support this memorial but would caution against allowing our 
support for creating a proper memorial causing us to pass a 
bill in haste. I think it is important to listen to the 
witnesses today and see what suggestions they may have to make 
creation and management of the memorial as easy as possible. 
This important legislation should set up a process whereby both 
Federal and local interests work together to ensure a 
successful memorial. It is up to us to make sure that the 
implementation legislation is correct. It would be a disservice 
to all those who suffered loss at the Murrah Building to do 
anything less.
    I look forward to hearing from our witnesses.

    Mr. Hansen. Thank you. We have a vote on the floor. Let me 
recognize Mr. Hefley, and following his remarks it would be my 
suggestion that we stand in recess for a brief time while we 
vote and then come back and will take the witnesses as soon as 
possible. Mr. Hefley?
    Mr. Hefley. Mr. Chairman, I do not have any prepared 
remarks, but let me just say this. As Mr. Istook and Mr. Lucas 
know, I am from Oklahoma City. My home is in Oklahoma City and 
my family is in Oklahoma City.
    I felt particularly keenly about this particular act of 
terrorism because I do not think I have a family member or a 
friend in Oklahoma that was not directly and personally 
affected by this. They either had--my mother-in-law had a 
friend who sang with her in the church choir--or they had a 
relative. Our farmer friend from--Oklahoma had a neighbor who 
had gone down just to check his Social Security that morning.
    I was affected very personally by this. I was on the 
grounds in front of the Murrah Building shortly after the 
blast. I just happened to go down that way. I used to work out 
at the Y right across the street that had the boarded-up 
windows from the blast. And to look at that building firsthand 
after the blast, it was much worse, as all of you who were 
there, I know. They even depicted it on television--it was a 
horror scene on television.
    So, I think a memorial is perfectly appropriate, and I look 
forward to us planning together what kind of a memorial this 
should be. I do have some questions about how it--I hope the 
witnesses will provide those answers. For instance, are we 
going to put a unit of the Park System there with personnel? Or 
this a cooperative relationship where Oklahoma would handle the 
day-to-day management of it? Those kind of questions I hope 
will be answered. But I am fully in tune with the idea that 
there ought to be some kind of a memorial so that we never 
forget this and so that the horrors of it will be brought home 
to people, and it may help to deter. I do not know. But I look 
forward to this hearing.
    Mr. Hansen. Thank you. We will stand in recess briefly. We 
urge members to vote and hurry back and we will go to the 
witnesses.
    [Recess.]
    Mr. Hansen. The hearing will come to order. Our first 
witness is the Honorable Frank Lucas, who is chief sponsor of 
the bill.

  STATEMENT OF THE HONORABLE FRANK LUCAS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Lucas. Thank you, Mr. Chairman and Ranking Member and 
Members of the Committee, for the opportunity to testify today 
before you regarding H.R. 1849, the Oklahoma City National 
Memorial Act of 1997.
    Certainly the losses and struggles that resulted that day 
on April 19, 1995, the explosion in front of the Alfred P. 
Murrah Federal Building, they resulted from a public attack 
that was shared by the heartland community, the Nation and, I 
believe, the world.
    My office was less than a block and a half away from that 
ill-fated building. Certainly it is both gratifying and a bit 
disheartening to realize that much of my legislative agenda 
during my short career here in the U.S. House has been shaped 
by such an evil act, and that certainly is what brings me here 
today.
    Given, I believe, the national and international impact and 
reaction, the Federal character of the site of the bombing, the 
significant percentage of the victims and survivors who were 
Federal employees, a National Memorial designation is highly 
appropriate. The Memorial Foundation, as I understand it, in 
this bill will not accept a penny of Federal funding unless it 
is matched dollar for dollar by private donations. The 
Foundation is asking for a one-time appropriation of $5 
million.
    I think that it is important to recognize the unique 
significance of this memorial. This National Memorial will be 
one of the few memorials that memorializes and honors not only 
those who died but those who are still living. And certainly a 
memorial honoring the living brings a unique set of 
circumstances in determining how the site should be properly 
planned and interpreted while ensuring the wishes of those 
still living in Oklahoma City.
    Directed by the President, this legislation presented 
before you today creates a workable balance between the 
Oklahoma City Memorial Trust and the National Park Service. 
Both the National Park Service and non-Park Service personnel 
will staff the grounds. All public comment, policy planning and 
design issues will be made by the members of the board of 
directors of the Oklahoma City National Memorial Trust, which 
will be established by the legislation.
    I believe that it has always been the intention of the 
Oklahoma City Memorial Foundation to work in cooperation with 
the National Park Service to properly manage the Oklahoma City 
National Memorial. The winning design for the Memorial, which 
will be fully explained by its architect today, I think will be 
a fabulous beacon drawing mankind to the site that will remind 
us of our nation's greatness.
    Earlier this summer the Senate passed the companion 
legislation by a large vote and on the 13th of August President 
Clinton declared his support for the National Memorial.
    If I could, Mr. Chairman, I would like to take, I think, 
this moment to introduce into the record written statements 
regarding H.R. 1849 by Senator Inhofe, Mr. Watts, and Governor 
Frank Keating.
    Mr. Hansen. Without objection.
    [The statement of Senator Inhofe follows:]

Statement of Hon. James M. Inhofe, a Senator in Congress from the State 
                              of Oklahoma

    Mr. Chairman, Members of the Subcommittee, as a former 
House Member, I am both pleased and honored to have the 
opportunity to present my views today on the Oklahoma City 
National Memorial Act of 1997 (H.R. 1849). As an original 
cosponsor of the Senate companion legislation, I certainly 
appreciate the leadership efforts Representative Lucas has 
demonstrated on this important piece of legislation.
    As you are aware, the Senate unanimously approved the 
Oklahoma City National Memorial Act of 1997, S. 871, on July 
31. I was extremely pleased at the pace in which the Senate 
acted upon this legislation. It was just a few short months ago 
that this legislation was just an idea. Now, we stand on the 
verge of enacting this legislation to remember both the victims 
and survivors of this terrible tragedy.
    On April 19, 1995, the bombing of the Alfred P. Murrah 
Federal Building shook the conscience of United States. As a 
result of this cowardly terrorist's attack on innocent people, 
168 men, women, and children lost their lives. Few events, if 
any, have shaken the American public's view of themselves and 
confidence in the American way of life. The vivid memories and 
images of the tragedy will remain forever etched in our minds 
for years to come. However, despite the tremendous loss of life 
and innocence, the American spirit has shown remarkable 
resilience.
    The individuals who lost their lives and those whose lives 
were altered as a result of the bombing deserve to be 
remembered as national heroes. These innocent victims arose 
each day and went to work to do the work of the American 
people. These were working men, women, and innocent children, 
not the elected figureheads, and represent the true backbone of 
the American government. As individuals, they must be honored 
and remembered. Therefore, it is fitting that the Memorial has 
been designed to honor them in a very visible way. Their lives 
serve as a testament to what this country is, what it can be, 
and what it will be.
    In addition to the immediate victims of the bombing, we 
must also recognize the law enforcement officials, the 
emergency rescue personnel, and the countless volunteers who 
rushed to Oklahoma during our hour of greatest need. The 
memorial's ac-

knowledgment of not only the victims, but the others involved 
in the rescue process, is artfully done to remind us all that 
we are part of a nation that cares and responds to those in 
need.
    The establishment of the memorial is not only appropriate 
but an important part of teaching future generations of 
Americans what we are all about. This memorial will serve as a 
constant reminder to us that the price of our freedom is 
eternal vigilance against those who would rob us of our sense 
of security through acts of senseless terrorism.
    I am pleased that throughout the entire process of 
establishing this memorial that many of those who have been 
involved in the formation of this idea at the local and state 
level have been given the opportunity to express their views. 
Additionally, earlier this year at a Senate field hearing, the 
survivors and the families of those who tragically lost their 
lives were given the opportunity to share their personal 
experiences. Through this painstaking process we will have 
ensured that the names of those involved in this terrible 
tragedy will not be lost to history, but rather will command a 
place of honor and respect in our nation's history.
    In closing, I would again like to thank the Subcommittee 
for holding this hearing on the Oklahoma City National Memorial 
Act of 1997. Furthermore, I would like to urge the House of 
Representatives to take up this bill that justly remembers the 
victims, survivors, and volunteers of the Oklahoma City 
Bombing.

    [The statement of Mr. Watts follows:]

 Statement of Hon. J. C. Watts, Jr., a Representative in Congress from 
                         the State of Oklahoma


    I would like to thank Chairman Hansen for holding this 
hearing today on the Oklahoma City National Memorial Act. I 
applaud Congressman Lucas's efforts in introducing this bill 
and realizing the importance of this legislation to all the 
people of Oklahoma.
    April 19th, 1995 was a terrible day for the State of 
Oklahoma. The whole world witnessed what minutes before seemed 
like an unthinkable act of terrorism. We, as a state and a 
country, pulled together as one to help all of those in need. 
Everyone was awed by the outpouring of love and generosity 
during this time of tragedy in our state.
    A national memorial for the victims of the Oklahoma City 
bombing will help continue the healing process in Oklahoma. 
This will serve as a central place where all people, who were 
either victimized or lost a family member or friend, can go to 
remember not only the day of the tragedy but also the love and 
support offered by the people of this great Nation.
    We must not forget the Homeric actions that occurred on the 
morning of April 19th, 1995. This memorial will allow us to 
reflect on that day and all those who were affected by this 
tragedy. It will serve as a memorial of hope, showing future 
generations of Americans how we as country came together during 
a time of unimaginable tragedy.
    Thank you again Chairman Hansen for having this hearing. 
All of Oklahoma thanks you and Congressman Lucas for your 
efforts in the passage of this legislation.

    [The statement of Governor Keating follows:]

   Statement of Governor Frank Keating, a State Senator from Oklahoma

    I am proud to write in support of H.R. 1849 by 
Representative Lucas.
    The April 19, 1995 terror bombing of the Murrah Federal 
Office Building in Oklahoma City was an assault on our Federal 
Government. It claimed 168 lives and changed many more. The 
national response to this tragedy was unprecedented; assistance 
came to Oklahoma from all 50 states, and for the days and weeks 
after the bombing, the site of the Murrah Building was the 
focus of the nation's attention.
    After the bombing's rubble was removed, the site was 
enclosed by a chain link fence which has become a makeshift 
memorial--a place of remembrance which draws hundreds of 
visitors each day. Those visitors also come from all across our 
country. They leave mementos on the fence, or simply stand and 
pray. I have only seen one other place with the emotional 
impact of this site, the Vietnam Memorial in Washington.
    The Oklahoma City Memorial Foundation has selected a design 
for the permanent memorial to be constructed at the Murrah 
site. Work is expected to begin on the memorial within the next 
12 months, with completion and dedication sometime in 1999. 
This memorial will include outdoor facilities, remembrances of 
those who died and those who were directly affected by the 
bomb, and a museum. The hundreds of visitors who come to the 
site each day will swell to thousands after the memorial is 
constructed. This place has already become a national shrine; 
in the serve as a reminder of the costs of violence and hate, 
and as an affirmation of all that is good in our land.
    H.R.1849 would transfer the site to the management of the 
National Park Service, in anticipation of the completion of the 
memorial. This is a fitting and appropriate step, especially 
given the willingness of the Oklahoma City Memorial Foundation, 
the Oklahoma Historical Society and state and local government 
to cooperate in creating, building and operating the permanent 
memorial. We have an opportunity to encourage close and 
beneficial cooperation among Federal, state and local 
authorities, both private and public, by approving this 
resolution.
    I urge its adoption.

    Mr. Lucas. And let me say once again that I appreciate the 
opportunity to have this hearing before the Subcommittee and 
for the Members of this Committee to consider this piece of 
legislation. I think it is truly a unique opportunity to create 
a memorial that may weld new concepts in planning and design 
and interpretation and utilization, because that is what it is 
all about. I thank the Members of Congress. We serve a purpose 
of representing our constituencies and we do what--and with 
that, Mr. Chairman, I would be glad to answer any possible 
questions you may have.
    [The statement of Mr. Lucas follows:]

Statement of Hon. Frank D. Lucas, a Representative in Congress from the 
                           State of Oklahoma

    Mr. Chairman, Members of the Subcommittee, I thank you for 
the opportunity to testify before you today. I am proud to have 
introduced H.R. 1849, the Oklahoma City National Memorial Act 
of 1997. This historical legislation is a huge step in the 
healing process for the people of my state and the entire 
nation.
    When a massive bomb exploded in front of the Alfred P. 
Murrah Federal Building on April 19, 1995, it shook Oklahoma 
City's foundation and shocked the nation. Few events in the 
century have rocked American's perception of themselves and 
their institutions, and brought together the people of our 
great nation with the intensity of this devastating crime. 
Although these losses and struggles are personal, and you will 
certainly hear of some of these experiences today, they 
resulted from a public attack and are shared by a heartland 
community, the nation, and the world.
    One of my district offices was less than a block and a half 
away from that ill-fated building. When I saw the damage to my 
office, a block and a half away from ground zero, the disbelief 
that I shared with my staff will never be forgotten. Mr. 
Chairman, colleagues, as you can well imagine there was no 
legislative road map to follow in the wake of this tragic 
event. It is both gratifying and a bit disheartening to realize 
that much of my legislative agenda during my short career in 
the House has been shaped by such an evil act. Over the past 
years I have had the privilege and opportunity to help ease the 
burden Oklahoma City has beared as a result of this devastating 
tragedy. And this is what brings me here today.
    As will be explained in greater detail by others present, 
this memorial will encompass the Murrah building site, Fifth 
Street between Robinson and Harvey and the sites of the Water 
Resources and the Journal Record buildings. Both National Park 
Service and non-park service personnel will staff the grounds. 
All public comment, policy, planning, and design issues will be 
made by the Members of the Board of Directors of the Oklahoma 
City National Memorial Trust, which will be established by this 
legislation.
    Given the national and international impact and reaction, 
the Federal character of the site of the bombing, and the 
significant percentage of the victims and survivors who were 
Federal employees, a National Memorial designation is highly 
appropriate. My legislation heralds the spirit, determination, 
and hope of Oklahomans and all Americans who have persevered in 
the wake of such a tragic event. The Oklahoma City Memorial 
will be established, designed, managed and maintained to 
educate present and future generations, through a unique 
public/private partnership, to work together efficiently and 
respectfully in developing a national memorial relating to all 
aspects of the April 19, 1995 bombing in Oklahoma City.
    The character of Oklahomans continues to be on display in 
their asking the Federal Government for financial assistance on 
this meaningful project. Although the Memorial will need 
approximately $24 million to be established, Oklahomans are 
asking that legislation establish the Oklahoma City National 
Memorial as a unit of the National Park System and authorize 
only $5 million in Federal funding. Furthermore, the memorial 
fourth will not accept a penny of Federal funding unless it is 
matched dollar for dollar by private donations. In addition to 
the proposed Federal money, the Oklahoma City Memorial 
Foundation is seeking $5 million from the Oklahoma State 
Legislature and $14 million in private donations.
    The love and respect Oklahoma City has received, since 
being thrust into the national spotlight, was most evident in 
the vast participation and outpouring during the international 
design competition. The winning design, which will be fully 
explained by its architect today, will be a fabulous beacon 
drawing mankind to a site that will remind us of our nation's 
greatness. This nation, as has been proven many times in the 
past, will not be defeated by forces that seek to divide us.
    Leaders from across the country have already stepped 
forward in a bipartisan effort to support this National 
Memorial. The Senate has already shown its support by passing 
the companion legislation S. 871 on July 31. On August 13, 
President Clinton also showed his support for the National 
Memorial by inviting the Oklahoma City Memorial Foundation to a 
ceremony at the White House endorsing the memorial design. At 
this ceremony, President Clinton stated, ``The tragedy was a 
national one, and the memorial should be recognized and 
embraced and supported by the nation.'' He further stated, 
``And we have now a memorial that I hope will be part of our 
national park system.'' I wholeheartedly believe this memorial 
deserves to be designated a National Memorial.
    I would like to thank Chairman Hansen and members of the 
Committee for the opportunity to testify before you today.

    Mr. Hansen. Thank you. We appreciate your testimony. Mr. 
Istook?

      STATEMENT OF THE HONORABLE ERNEST J. ISTOOK, JR., A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF OKLAHOMA

    Mr. Istook. Thank you, Mr. Chairman. I appreciate the 
chance to be here to support Congressman Lucas' legislation.
    When we look at the site of the Oklahoma City bombing and 
why it is unique, it is because two things have come together 
that normally are very different. The same spot which 
demonstrated the very worst in man also became the spot where 
the very best was shown in an outpouring of service, aid, work, 
comfort and love. To have these extremes of the worst and of 
the best occur in the same spot, the same event, is unique.
    You can go anywhere in America or in the world and find a 
spot of some tragic event. Perhaps we cannot build a monument 
to every tragedy, but what happened on April 19, 1995, and the 
days following gripped our country so strongly that it is 
universally agreed that this memory and its lessons must be 
preserved and never forgotten.
    In my own generation, very few events stand out as 
occasions when everyone remembers where they were and what they 
were doing at that moment: There was the assassination of 
President John F. Kennedy; the moment when man first stepped on 
the moon; the tragic explosion of the space shuttle Challenger; 
and now the bombing of the Murrah Federal Building in Oklahoma 
City. It has taken its place as a universally shared 
experience, embedded forever, not only in our memories but also 
in our hearts. What happened in Oklahoma City, and the response 
by its citizens and by all of America, must be preserved and 
must be remembered and we must learn from it.
    The outpouring of love and tears, help, care and 
determination set a powerful example for the entire country and 
for the world. They saw a community which truly believed that 
we are our brother's keeper. In memorializing this event, we do 
not remember just an attack or an act of terrorism. We remember 
grief being met with compassion, need being met with service, 
hurt being met with comfort, and continuing needs being met 
with an outpouring of help that still flows strong today.
    A lady made a statement to me about the bombing that I 
think sums it all up. As she told me, ``Our faith is greater 
than their sin.'' In this memorial, we aspire to create a 
lasting and enduring monument to that eternal truth.
    I appreciate the support of the Committee and hope that we 
all recognize how totally unique this is, a monument not just 
to an act of terrorism but a monument to hope and the uplift 
that we all need in our hearts.
    [The statement of Mr. Istook follows:]

 Statement of Hon. Ernest J. Istook, Jr., a Representative in Congress 
                       from the State of Oklahoma

    When we look at the site of the Oklahoma City bombing, and 
why it is unique, it is because two things have come together 
that are normally very different. The same spot which 
demonstrated the very worst in man also became the spot where 
the very best was shown, in an outpouring of service, aid, 
work, comfort and love. To have these extremes of the worst and 
of the best occur from the same event is totally unique.
    You can go anywhere in the United States, or in the world, 
and find the spot of some tragic event. Perhaps we cannot build 
a monument to every tragedy, but what happened on April 19, 
1995, and the days following gripped our country so strongly, 
it is universally agreed that this memory and its lessons must 
be preserved and never forgotten.
    In my own generation, very few events stand out as 
occasions when everyone remembers where they were and what they 
were doing at that moment: There was the assassination of 
President John F. Kennedy; the moment when man first stepped on 
the moon; the tragic explosion of the space shuttle Challenger, 
and now the bombing of the Murrah Federal Building in Oklahoma 
City. It has taken its place as a universally-shared 
experience, embedded forever, not only in our memories but also 
in our hearts. What happened in Oklahoma City, and the response 
by its citizens and by all America, must be preserved and 
remembered.
    The outpouring of love, tears, help, care and determination 
set a powerful example for the entire county, and for the 
world. In memorializing this event, we do not remember just an 
attack, or an act of terrorism. We remember grief being met 
with compassion, need being met with service, hurt being met 
with comfort, and continuing needs met with an outpouring of 
help that still flows strong today.
    A lady made a statement to me about the bombing that sums 
it all up. As she told me, ``Our faith is greater than their 
sin''. In this memorial, we aspire to create a lasting and 
enduring monument to that eternal principle.

    Mr. Hansen. Thank you very much. We appreciate the 
testimony of our good colleagues. And if you will stay just a 
moment and see if there are any questions for you. Gentleman 
from--any questions or comments?
    Mr. Faleomavaega. Mr. Chairman, I have no questions, just a 
comment. I thank both the gentlemen for their testimony. I 
think there is a question of whether or not there should be a 
park or a memorial, should be under the control of the city--
the residents of Oklahoma City or whether the National Park 
Service should have a dominant role in the management of this--
if you would like to comment on that?
    Mr. Lucas. I truly think that it is appropriate that we go 
about this the way the bill is drafted. Clearly in the $24 
million that will be required to design and create and staff 
this facility, $19 million of those $24 million will come from 
state and local and private sources, which gives it a unique 
character.
    Because of the spontaneous coming together of the task 
force to help create this plan in the beginning, I think that 
they have shown a most unique capacity to do what is 
appropriate in this case. I can say with confidence, though, 
that I believe that the Trust, the Foundation that would come 
from this bill will do everything within their capacity and 
they--that can be addressed momentarily from the other 
witnesses in the panel. But I think they will do everything 
within their capacity to develop and work in accord, a strong 
relationship with the National Park Service. And based on my 
experience with the Park Service, I have great expectations 
that they will work just as diligently in the other direction. 
And if they anything, we may well lay some new ground with this 
piece of legislation, for how to address the important national 
events and experiences.
    Mr. Istook. I wanted to echo Congressman Lucas' comments, 
but I think the plan for the construction and operation, if you 
will, very much parallels what actually occurred in handling 
this disaster. Certainly we had units from all over the 
country, disaster assistance and urban rescue squads that came 
in from many places in the country. We had the Federal roles, 
FEMA, and disaster assistance. But, nevertheless, as--Fire 
Chief Marrs, who is here, he was involved in directing efforts 
there. Nevertheless, it was still all coordinated through 
Oklahoma City.
    And I think Oklahoma City showed unique capabilities and 
unique capacity, and I believe the legislation tracks that very 
model. It follows a model that was used so effectively in 
working with the disaster itself. And I think it is really 
suitable that the model for how the memorial will function will 
parallel that design.
    Mr. Faleomavaega. Perhaps the closest precedent that we 
have established in setting up National Memorials or Nationals 
Parks has been an example that we have set up in the Presidio 
in San Francisco. It is the thinking of both gentlemen and of 
the vast majority of the people in Oklahoma City, Oklahoma, are 
you very comfortable in establishing this memorial? And you 
want to set up a partnership with the National Park System but 
do you feel that your people will be glad to take care of this 
issue in such a way that the Park Service can help, but it is 
not necessary that they have to control the entire effort?
    Mr. Istook. I think, Mr. Faleomavaega, the--you know, just 
what went into working on the design of the memorial--Chairman 
Johnson is here from the committee and Mayor Norick, who 
oversaw the establishment of the method. The involvement has 
been so great, from the community and from the citizens of 
Oklahoma City, and it is, frankly, important to the community 
that they continue to show their ability, their capacity, to 
show how our community cares for one another, to try to do 
things for ourselves. I think that is very important to the 
community.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. Mr. Hefley?
    Mr. Hefley. Thank you, Mr. Chairman. I think the previous 
questioner got the answer that I wanted. There does not seem to 
be any dissension on this within Oklahoma, that you have 
everybody pretty much behind this effort?
    Mr. Lucas. Absolutely. I would say initially there was some 
thought that it should be a state or local site, but then we 
considered, as we have all considered back home, the national 
implications. This was in fact a Federal site, a Federal 
Building. This was an attack that took the lives of an 
incredible number of Federal employees. This tragedy was an 
assault on the people of the entire United States. So, that, in 
addition to the national and international media exposure and 
the outpouring of warmth and help from people all across the 
Nation and around the world. This is a site of national 
significance and scope. And the route that we are attempting to 
go on this bill is the most appropriate, I feel. I think--
Oklahoma City to reflect that national significance.
    Mr. Hefley. Well, you know, an image was created for 
Oklahoma City as a result of this tragedy, both good and bad; 
the good being the way Oklahoma City rallied to meet this 
emergency and the bad being such things as the Connie Chung 
statement, rather than praising the firefighters in Oklahoma 
City and those who around the country who came to help she said 
that: well, what is the matter, does not Oklahoma City have any 
firefighters of its own? I hope that was one of the things that 
contributed to her demise on network television. I do not know.
    But I think it is very appropriate then that the people of 
Oklahoma should have a major say in creating the image for the 
memorial, if they would like. And the Chairman of this 
Committee and Members of this Committee have worked very hard. 
We are struggling with the idea and realizing that the Federal 
Government cannot do everything, but we want more and better 
parks. We want to recognize the important events of history the 
way we should. And the idea of private, state, local, and 
Federal partnerships to do this in certain cases seems very 
appropriate. And I think you were right, Mr. Lucas, when you 
mentioned that this might be an example that would be utilized 
in other places.
    I would say this though, that I think the Trust would be 
very shortsighted if they did not develop a close relationship 
with the National Park Service. After all, they are the people 
that have been in this business, and by and large doing a very 
good job in this business, for a lot of years. And so I would 
hope that that would be a very, very close relationship.
    Mr. Chairman, I yield back the balance of my time.
    Mr. Hansen. Thank you. The gentlelady from Virgin Islands?
    Ms. Christian-Green. Thank you, Mr. Chairman. I really do 
not have any questions. I guess I would join you in welcoming 
my colleagues and commending Mr. Lucas for sponsoring the bill 
to memorialize and honor the memory of all of the victims of 
the Oklahoma City bombing--from this terrible tragedy and--
experience--I look forward to your testimony. I hear that that 
is the direction in which you are going in. I commend you both. 
Thank you.
    Mr. Hansen. Thank you. Gentleman from Tennessee, Mr. 
Duncan? Gentleman from Puerto Rico?
    Mr. Romero-Barcelo. Thank you, Mr. Chairman. I also join my 
colleagues here in commending Mr. Lucas and Istook, our 
colleagues, for bringing this up here. And, also, I remember 
that day's happening. In Puerto Rico we felt as though it had 
happened right there at home. And we feel--this is, as you say, 
a national monument, not only a monument for Oklahoma but for 
all the Nation for the world to see. I will be pleased to do 
it. Thank you.
    Mr. Hansen. Thank you. The gentleman from Minnesota, Mr. 
Vento?
    Mr. Vento. Thank you, Mr. Chairman. I was not here for your 
opening statement, just direct my comments to the authors. I 
was interested in legislation. There is a law that deals with 
the designation, construction and maintenance of memorials and 
very few of the--little of the testimony today addresses itself 
to that. It actually provides for the construction from private 
funds and the maintenance, in fact, funds set aside for the 
continued maintenance.
    Really this case is extraordinary, the Federal role. I 
agree certainly with the designation. I agree with providing 
some support, perhaps even more than what has been indicated 
here, but I appreciate and recognize the tremendous 
contribution and interest of the citizens of Oklahoma 
nationwide in terms of supporting this.
    I think the question here in terms of the corporation is--
first question to be asked: is the Park Service capable of 
managing and doing this traditional role? You are asking for 
Park Service designation, but then you--the Park Service 
actually to effect and protect the integrity and deal with the 
nation's parks.
    I understand, Mr. Chairman, there is no controversy over 
the design of the memorial. There is a pretty good consensus 
about that. So the question--my question is with--I do not 
expect any of you to answer them, because I think that they are 
questions that really need to be answered probably by all of 
those participating today. But, you know, is this the deal 
that--who is going to decide if there are any modifications to 
it? Is this going to be still in the hands of the Park Service 
or Congress? The operation costs, the maintenance costs, who is 
going to decide what--how they are treated in terms of the 
integrity of this particular memorial. Who is going to be 
responsible for the law enforcement? It may seem a like small 
thing, but it becomes very hard when you have to, you know, get 
an individual who decides that they want to take a rest on one 
of the benches for the evening.
    So, these are the types of questions that, you know, in 
terms of who is going to be managing this and what the 
relationship is. Which I think these go well beyond the fact of 
GSA/FEMA, the interagency agreement. It really needs to be 
something that we need to put forth in the legislation in terms 
of directing the Park Service, who does--in terms of writing, 
and then come up with some agreement. I do not--I do not 
think--but at the end of the day if it is going to be a 
National Park designated monument? I mean that this is not San 
Francisco. It is the only corporation we have. In fact, we have 
done some very hard projects in terms of rehab projects, like 
the Statue of Liberty, dealing with foundations. So, there are 
plenty of models for drafting or drawing on private sources and 
giving a pretty good voice, a pretty good working relationship 
with the Park Service.
    I agree that--establishes a law, a law that deals with the 
designation of memorials, the construction and maintenance of 
them, and I suggest you look to it rather than the corporation 
model, which frankly was an unusual circumstance for Presidio 
and something you might use for, as I say to my friend Mr. 
Lucas, as a--corporation. As a private-government corporation, 
these have extraordinary powers. I think that it is not 
probably something that has been fully explored here in terms 
of what the issues are that we might be involved in. This is 
actually setting up another entity of government. For those of 
us that are concerned about too much government, you might be 
concerned about the state of the local government and the 
Federal Government. Do we need another entity?
    And so I just leave you with those thoughts and I hope that 
my colleagues and the many others that will be addressing these 
will be discussing the issues that I raised. I think it is a 
good and worthy project and it has support. I think most of us 
here--the policy fact is that we are establishing this very 
important legislation.
    Thank you, Mr. Chairman.
    Mr. Hansen. Thank you, Congressman. We welcome our two 
colleagues from Oklahoma. We appreciate having you with us.
    The first panel will be Maureen Finnerty, Associate 
Director for Park Operations and Education, National Park 
Service, and John Pouland, Regional Administrator in Region 7, 
General Services Administration. Thank you both. The Park 
Service?
    Are you folks able to handle your testimony in 5 minutes? 
We always give 5 minutes on the--it is like a traffic light. It 
works exactly the same way. Meaning go, yellow, and red means 
shut it off. I am sure we can accommodate you. We will hear 
from the Park Service, first.

  STATEMENT OF MAUREEN FINNERTY, ASSOCIATE DIRECTOR FOR PARK 
        OPERATIONS AND EDUCATION, NATIONAL PARK SERVICE

    Ms. Finnerty. Thank you, Mr. Chairman. Thank you for the 
opportunity to appear before you to address H.R. 1849, a bill 
to establish the Oklahoma City National Memorial as a unit of 
the National Park System and to create a government corporation 
known as the Oklahoma City Memorial Trust to manage the 
memorial. First and foremost, let me say that we support the 
goal of establishing the memorial as a unit of the National 
Park System. The significance of the tragedy of the bombing of 
the Murrah Federal Building in Oklahoma City, and the meaning 
and implications of this event for our nation, compel the 
establishment of this memorial as a visible and prominent 
national shrine. While we support the establishment of this 
memorial, we have significant concerns over certain aspects of 
its management as proposed in H.R. 1849 and strongly recommend 
an alternative management arrangement. In raising these 
concerns, we share the sponsors' goals for expeditiously 
creating an excellent, well-managed national memorial that 
appropriately communicates and reflects the meaning of the 
Oklahoma City bombing to the nation.
    If enacted, H.R. 1849 would create a new unit of the 
National Park System in Oklahoma City--a memorial to recognize 
the pro-

found changes brought to so many lives on the morning of April 
19, 1995. The legislation would direct the National Park 
Service, upon the request of the Oklahoma City Memorial Trust, 
to provide technical assistance to the Trust and, along with 
other Federal agencies, to carry out day-to-day visitor service 
programs at the memorial.
    While the circumstances compelling the establishment of a 
national memorial to the Oklahoma City tragedy as a unit of the 
National Park System are extraordinary, the approach to 
managing this memorial should benefit from proven National Park 
Service models. Because the National Park Service was not part 
of the process that developed the Intergovernmental Letter of 
Understanding, dated October 28, 1996, we could not provide our 
suggestions at that time. We appreciate the opportunity 
provided by the legislative process to share our views now 
about the most appropriate and effective role for each 
organization and governmental entity involved in the memorial.
    Mr. Chairman, we support the objective that this new unit 
of the National Park System be managed and administered in 
close cooperation with, and with the full involvement of, local 
citizens and entities. As proposed, however, the legislation 
provides no role to the National Park Service in the management 
or administration of this new park unless the Oklahoma City 
Memorial Trust requests its involvement for certain limited 
purposes. Essentially, the legislation provides complete 
control over this new park unit to the Oklahoma City Memorial 
Trust, a wholly owned government corporation.
    One significant issue for reconsideration is the 
establishment of the Oklahoma City Memorial Trust as a wholly 
owned government corporation. In a 1995 report prepared by the 
Congressional Research Service for the Senate Committee on 
Governmental Affairs, a government corporation was defined as 
``an agency of the government, established by Congress to 
perform a public purpose, which provides a market-oriented 
service and produces revenue that meets or approximates its 
expenditures.''
    The only example of the use of a government corporation in 
the National Park System is the Presidio Trust, established by 
legislation last November. The Presidio of San Francisco 
presented a tremendous management challenge. The military 
transferred an enormous complex with many buildings to the 
National Park Service. In that case, the National Park Service 
needed the expertise of people familiar with business and real 
estate in the city of San Francisco who could effectively lease 
buildings and provide other mechanisms to assure that the 
Presidio's buildings were protected. While entrepreneurial 
revenue-generating goals are appropriate for the Presidio, we 
question whether they are as appropriate for this memorial.
    It was clear to us from the testimony given at the field 
hearing in Oklahoma City that it is the wish of local citizens 
and the State of Oklahoma to retain a strong level of local 
control and involvement in all aspects of the memorial's 
operation and interpretation. We believe that the legislation 
could best achieve this by directing the National Park Service 
to manage the memorial in cooperation with the Oklahoma City 
Memorial Foundation, which could operate without the Federal 
restrictions that would be imposed on a government corporation. 
The general guidance for this cooperative effort could be 
outlined in legislation and the specific aspects of the 
partnership developed through cooperative and interagency 
agreements.
    We would be pleased to provide examples of public laws for 
existing National Park System units which involve partnerships 
with municipal or private institutions, as well as examples of 
cooperative and interagency agreements at existing National 
Park System units.
    We look forward to working closely with the delegation and 
the Committee staff in developing a legislative concept which 
will work well for the Oklahoma City Memorial Foundation, the 
National Park Service, and all of those who have been affected 
by this tragic event. Thank you.
    [The statement of Ms. Finnerty may be found at end of 
hearing.]
    Mr. Hansen. Thank you. Mr. Pouland?

 STATEMENT OF JOHN POULAND, REGIONAL ADMINISTRATOR, REGION 7, 
                GENERAL SERVICES ADMINISTRATION

    Mr. Pouland. Thank you, Mr. Chairman and Members. My name 
is John Pouland. I am Regional Administrator of the General 
Services Administration for the Southwest Region which includes 
Oklahoma City.
    I am here today to support an effort which will help the 
people of Oklahoma and the rest of the Nation to continue the 
healing process. I am here today to support H.R. 1849.
    As the President stated during the Ceremony on behalf of 
the Memorial Foundation last month, ``The Memorial design is 
elegant. It is symbolic. It manages to focus on this act of 
unconscionable violence and still honor the valor of the people 
of the community and the lives of the victims in a setting of 
reflection and peace that should leave people, when they go 
through it, feeling stronger rather than weaker.''
    The people of the General Services Administration were 
personally affected by the suffering, involved in the rescue 
and emergency management efforts, and assisted in the re-
establishment of operational capabilities. Now we are proud to 
help with the healing process. The Murrah Federal Building was 
part of the GSA-owned Federal inventory and the child care 
center was part of a nation-wide effort to create child care 
for Federal workers. Tragically, two of our employees died in 
the attack and 20 others were injured. Our regional employees 
were particularly distraught since we knew many of the tenants, 
our customers, from the various agencies housed in the 
building.
    Immediately following the bombing, GSA employees assisted 
emergency teams with the evacuation of the building. We 
established a security perimeter around the building for safety 
precautions and to expedite aid. Within hours of the explosion, 
GSA established a command center in Oklahoma City and located 
space for the Oklahoma City Disaster Field Office for the FEMA 
and the Department of Justice. By the next morning, 
approximately 50 of our GSA personnel were onsite assisting in 
critical areas. At the same time, the Federal Building and 
Courthouse, one block south of the Murrah Building, and the 
U.S. Post Office and Courthouse, two blocks to the south, 
received immediate assistance to maximize safety and restore 
normal operations.
    GSA was able to respond immediately in various ways to the 
Oklahoma City disaster. We either provided services directly or 
coordinated with other agencies and response groups. These 
circumstances were a true test of GSA's preparedness systems 
and procedures.
    Since the tragedy, the site of the destroyed Murrah 
Building was cleared and stands ready to be transformed from a 
site of pain and sorrow to a site of remembrance and healing. 
GSA fully supports the establishment of the memorial and is 
prepared to transfer the site to an appropriate Federal agency, 
or local entity if that is deemed appropriate. At the same 
time, GSA is planning to construct a new Federal building in 
Oklahoma City, as authorized by the Administration and Congress 
and in cooperation with the city.
    The establishment of a National Memorial is the right thing 
to do. GSA supports the establishment of the Memorial and would 
like to work with the Oklahoma delegation, the National Park 
Service, and other agencies and entities to find the 
appropriate way to manage the memorial.
    This concludes my remarks. Thank you for having me. I look 
forward to answering any questions.
    [The statement of Mr. Pouland may be found at end of 
hearing.]
    Mr. Hansen. Thank you both for your testimony. Mr. Pouland, 
H.R. 1849 provides for the transfer of the portion of the 
former Murrah Federal Building Trust at no cost. Does GSA feel 
that the intent of this transfer will allow GSA the flexibility 
your agency needs to continue the ongoing operations and 
maintenance of the underground parking garage at this site?
    And, furthermore, do you believe that GSA can enter into a 
Memorandum of Understanding and Cooperative Agreement with the 
Trust, the National Park Service, the U.S. Marshal Service, and 
the Administrative Office of the U.S. Courts to effectively 
manage your adjoining two Federal buildings near the Oklahoma 
City Memorial?
    Mr. Pouland. My answer to both of those questions is yes, 
sir. We do, we can, and we will. The issue of adjoining 
property line, our parking garage, and how we will manage that 
longterm and how we may have to--frankly, future generations, 
hopefully not mine, may have to deal with renovation or 
construction issues on that parking garage site, and it will be 
next to the Memorial. We feel confident that we can do MOU's, 
Memoranda of Understanding, work with the Foundation to get the 
appropriate flexibility we need to prepare ourselves for those 
contingencies in the future. I would not want to be in a 
situation where 50 years from now it was deemed that that 
parking garage had a higher and better use and the issue of 
access to that land and what we might do there. I would not 
clarify it at this time, but we think we can do that with an 
agreement with the Foundation, with the city, with the 
community, an we will continue to work with them in every 
respect to address any concerns that we have now and that might 
occur in the future, get those in writing, have a clear 
understanding of what the relationship is and deal with it 
appropriately.
    Mr. Hansen. Would the GSA or the National Park Service, 
especially your counterpart, Mr. John Cook, the Regional 
Director of the National Park Service in Denver, Colorado, who 
assured all the necessary Memorandum of Understanding and 
Cooperative Agreements are executed in a timely fashion? The 
Subcommittee feels that there is a tremendous opportunity for 
Federal agency partnership at this proposed National Memorial 
and feels that GSA has a role at this memorial, the National 
Park Service, and the Oklahoma City Trust.
    Mr. Pouland. Yes, sir. I will, and the agency will, look 
forward to working with the National Park Service. The National 
Park Service and the Department of Interior are excellent 
customers of ours, and we view them as such and we will work 
with them in every way possible to ensure full participation, 
full understanding, and we will certainly continue to work with 
the local community in every respect.
    Mr. Hansen. Finally, Ms. Finnerty, how does the National 
Park Service respond to this cooperative partnership with GSA 
and the Oklahoma City Trust? Do you believe that this will 
assist in the day-to-day management and success of the 
memorial?
    Ms. Finnerty. Well, certainly we would look forward to 
working in cooperation under cooperative arrangement with all 
involved in this, both at the local and Federal level, and I 
think that would be important for the successful management of 
the site. However, we still have some concerns about the 
legislation as drafted and the overall role given specifically 
to the government trust to administer this as a unit of the 
National Park System in accordance with the laws and 
regulations. That role in specific on the Trust----
    Mr. Hansen. Further questions?
    Mr. Faleomavaega. Yes, Mr. Chairman. I think there seems to 
be a problem here in defining exactly the difference between a 
National Memorial and a National Park. Is there a distinction 
between these two? It is my understanding there are 27 National 
Parks that we have. Because of that designation--there is also 
a difference in funding as well as administration. Am I correct 
on this?
    Ms. Finnerty. Well, we have--as you know, Congressman, we 
have 376 units in the National Park System, and I think about 
45 or 50 of those carry the designation of National Park. The 
other 325 have a variety of names, being seashores, recreation 
areas, historic sites and memorials, mines, the whole range. 
Generally all the units, though, are managed in accordance with 
the Organic Act of the National Park Service, and then more 
specifically in accordance with the particular laws established 
these Federal units. We really do not make a distinction of a 
memorial or a national park. There are specific in legislation 
establishing--will certainly provide----
    Mr. Faleomavaega. We hear what President Clinton did this 
year. Because I ask all the Members to join me in supporting 
the effort to establish a memorial on the site of the bombing, 
so apparently the Administration is agreeable to this concept. 
And I wanted to ask Ms. Finnerty: I understand from your 
testimony that there were no consultations between the National 
Park Service and the initiative of the Oklahoma City, those 
involved with the State of Oklahoma?
    Ms. Finnerty. That is correct. This letter that I referred 
to from--dated in October 1996, the Park Service was not 
involved in any of those discussions and that letter actually 
was signed by two Federal representatives, GSA and FEMA, and 
with no consultation with the Service in preparation. And it 
has only been fairly recently that Intergovernmental Letters 
came to light for us and we were able to look at it.
    Mr. Faleomavaega. Could it have been because it was an 
honest oversight? Maybe they thought that maybe it was not 
necessary for the National Park Service to be involved in the 
memorial?
    Ms. Finnerty. Well, I cannot speak to that, Congressman. 
Certainly the letters we have read, it does make a lot of 
references to the National Park Service and a role--of having a 
role in the memorial, but we were not in on those discussions.
    Mr. Faleomavaega. It is my understanding that the Senate 
has already passed its version of this National Memorial?
    Ms. Finnerty. That is correct.
    Mr. Faleomavaega. How long was the National Park Service 
notified, at least for purposes of commenting on the proposed 
legislation? Were you given months or a couple of months or a 
couple of weeks to comment?
    Ms. Finnerty. I think it was July of this year when the 
Senate hearing was held and----
    Mr. Faleomavaega. So you really had no opportunity really 
to make any--proposed legislation.
    Ms. Finnerty. And my understanding is, if you will correct 
this if it is wrong, that at that time I am not even sure we 
knew about the Intergovernmental Letter. And a lot has come to 
light during the last couple of months, so we have gotten more 
information about how this whole thing is put together. And I 
believe our testimony in July, we essentially did not take a 
position because we were looking forward to working with these 
entities. We now of course support the addition to the National 
Park System, but still have some real concerns about who 
ultimately is going to ensure that the site is managed in 
accordance with Park Service laws.
    Mr. Faleomavaega. The train keeps moving, and the hope is 
that the National Park Service will be there. How do you 
propose a discussion? We have dealt with some issues with the 
National Park Service--maybe 10 years for a National Park--and 
maybe this monument--I think this is probably a bigger 
concern--delays.
    Ms. Finnerty. I do not think there needs to be inordinate 
delays. We certainly are willing to work with the City staff, 
all those parties. We understand this is on a fast track and we 
think it could be done fairly quickly, and we would just like 
to see some language in there that ensures the Park Service 
will ultimately be responsible for ensuring that the Park 
Service laws, and those kinds of things, are followed. The 
Trust is not going to have any experience in that area. So, we 
think there are a number of models that can be looked at and do 
not view this as being necessarily----
    Mr. Faleomavaega. Can you at least propose--to our 
friends----
    Ms. Finnerty. We will be happy to--we shared some of those 
already from the Regional Office in Denver.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. We will have to recess. We have a Member in the 
House of Representatives who is not getting his way and is 
posing numerous frivolous motions. This is another motion to 
adjourn and we will have to go over and vote on it, and then we 
will be back just as quickly as we can.
    [Recess.]
    Mr. Hansen. The Committee will come back to order. The 
panel of witnesses come back to the table. We call on Mr. 
Lucas. Do you have questions, Mr. Lucas?
    Mr. Lucas. Thank you, Mr. Chairman. I guess really, Mr. 
Chairman, I only have a couple of questions, one of which I 
would like to address to our Associate Director of the Park 
Service.
    You commented earlier about the Park Service not being a 
part of this process developing the Intergovernmental Letter 
dated October 28th of 1996. Do you remember or have any 
knowledge perhaps of whether there was any contact made with 
the task force or any of the entities in Oklahoma City during 
the process prior to that?
    Ms. Finnerty. Congressman, I was not until just a few 
minutes ago on break, when Mr. Johnson indicated to me that 
they had made some contacts, I guess with the Park Service in 
Denver. That was the first that we were aware of any of that 
and--here in Washington, and we do not know who that was. We 
had no knowledge of that here. And, of course, after the 
legislation was being put together and drafted, our legislative 
offices was never involved in that. So, as I said, at break I 
just found out for the first time. But certainly we in 
Washington, and our legislative office here, were not 
approached at all during the discussions on this.
    Mr. Lucas. Thank you. And one other question. Do you agree 
with, perhaps because of the population being represented in 
this unique set of circumstances, that there are many features 
about this circumstance that are unique?
    Ms. Finnerty. Well, I think no question. I would agree with 
that.
    Mr. Lucas. And would you anticipate that should this 
legislation become law, President signed, should it become law, 
would you anticipate that the Park Service would do their dead 
level best to the Intergovernmental Agreement, or whatever 
avenues are necessary to try to implement whatever laws that 
would be signed in?
    Ms. Finnerty. There is no question about that. We certainly 
will. We will participate and be helpful and try to make this 
work. We would feel, as I said before, a little more 
comfortable if we had a little stronger language in the bill, a 
bit more clearly articulated our role to help manage this in 
accordance with our laws and regulations.
    Mr. Lucas. Thank you. I really have no other questions at 
this time, Mr. Chairman.
    Mr. Hansen. Thank you. Mr. Vento?
    Mr. Vento. Thank you, Mr. Chairman. Ms. Finnerty, 
apparently this legislation suggests that the Trust will in 
fact administer the 1916 Organic Act, is that correct?
    Ms. Finnerty. That is how we read it, Congressman.
    Mr. Vento. Well, that is how it is written. So, I mean, you 
know, I think that that is--do we have any other examples in 
the Park Service where we have corporations or other entities 
other than the Park Service implementing the Federal laws, 
basically the Organic Act, other than the Park Service.
    Ms. Finnerty. No, sir, we do not. We have the Presidio 
model, of course, which you referenced earlier, which----
    Mr. Vento. I am familiar with that, but they are not 
implementing the 1916 Organic Act. They are a corporation----
    Ms. Finnerty. That is correct.
    Mr. Vento. [continuing] with a specific--is not there a 
Memorandum of Agreement and a stipulation between the Park 
Service and corporation as to what their role would be?
    Ms. Finnerty. Yes, there is. Presidio.
    Mr. Vento. Is there any Memorandum of Agreement between the 
Park Service and this proposed trust and corporation as to what 
the role of the corporation or the Park Service would be?
    Ms. Finnerty. For this particular legislation?
    Mr. Vento. Yes.
    Ms. Finnerty. I think it calls for the possibility that 
agreements could be entered into. I think that is specified in 
the legislation. But, again, it is not mandated and it would be 
at the beck and call of the Trust.
    Mr. Vento. For instance, is it not accurate that it is 
completely up to the corporation or the trust concerning 
whether the Park Service would have any role in this particular 
memorial?
    Ms. Finnerty. That is correct.
    Mr. Vento. So, in fact it may be that under this agreement 
that there is no presence of the Park Service at a memorial 
which, in fact, by the Letter of Agreement, is going to be 
inconsistent and modelled after the 1916 Organic Act? It is 
possible there would be no Park Service presence?
    Ms. Finnerty. Certainly it is possible that--because we--
the Park Service could have a role, a limited role, if asked. 
And----
    Mr. Vento. Why do you think that is important that the Park 
Service be present?
    Ms. Finnerty. Well, I think it is going to be extremely 
difficult for a government trust. You know, we have a lot of 
experience in managing parks. We have been at it for a long 
period of time. We have a lot of experience in opposing various 
legislative mandates, the Code of Federal Regulations, these 
kinds of things. A government trust is not going to have any of 
that kind of experience and I think it is going to be very 
difficult as they grapple with issues like law enforcement, 
they grapple with issues like the issuance of First Amendment 
permits. I mean, you know, it goes on and on and on. But that 
is going to be very difficult, if not impossible, a role, I 
think, for the trust to play. And those are the kinds of things 
that we are really concerned about.
    Mr. Vento. In other words, whether this is exclusive or 
joint jurisdiction or, you know, completely operated by the 
corporation--these are important questions. Is there any reason 
that this legislation, if you know, is not inconsistent with 
the Memorial Act laws that we have today? Is not it true that 
most of the Memorials we have have a private group associated 
with it or a public group associated with it that are 
responsible, nonprofit groups raising the money for the 
memorial and for providing a budget or an escrow amount or the 
maintenance operation of it--or maintenance of it, is that 
correct?
    Ms. Finnerty. Yes. We have a number of models that exist 
right now in the system of a variety of proper arrangements 
that deal with issues of funding, that deal with issues of 
management. There is a number of those kinds of things that we 
look at that we think might be a good model for this.
    We certainly understand that the local community and the 
citizens of the State of Oklahoma want to be very actively 
involved in managing this memorial, and that can happen. That 
can happen without any problem.
    Mr. Vento. Well, I mean in terms of selection of the site. 
But what about the interpretation of it? Nobody knows what that 
interpretation is going to be. Is there a general management 
plan to be developed for this particular memorial before it is 
law?
    Ms. Finnerty. The law does not speak to that.
    Mr. Vento. Well, but does the general law? The 1916 Organic 
Act said every Memorial has to have a general management plan?
    Ms. Finnerty. I do not believe it is quite that specific, 
but certainly as a policy we do prepare planning documents for 
the use of the System, yes.
    Mr. Vento. And then it has to be guided in terms of 
resource protection, other factors that are part of what goes 
into this? You said you do not know whether the 1916 Organic 
Act provides for a general management plan?
    Ms. Finnerty. Well, it certainly provides for us to 
administer units of the system in accordance with, you know, 
laws and regulations. And the general management planning 
process, we certainly require that as part of our policy and 
that kind of thing. So, it is under the 1916 Act, yes, we would 
have to look at a lot of those planning documents and that kind 
of thing.
    Mr. Vento. Very often is not there a controversy or issues 
that arise with regards to what the interpretation of a certain 
site might be?
    Ms. Finnerty. Oh, absolutely. Yes.
    Mr. Vento. So, I mean, maybe through the problems in terms 
of what the memorial--I do not know much about the operation 
and maintenance of that. I mean, I know that there are going to 
be 168 chairs and there are going to be some other glass 
chairs, which sounds very interesting and very profound, but I 
do not know what the maintenance is of it. I do not know what--
I guess it has undergone some scrutiny in terms of that. I 
assume it has. There is generally not a controversy about that, 
and I accept that. And it is good that that issue is out there 
so--beyond that, how you interpret this site is another matter. 
In terms of--very often we have found, for instance, at the 
Vietnam Veterans Memorial, that individuals bring materials and 
leave them there.
    Ms. Finnerty. That is correct.
    Mr. Vento. And so we have archives full of various types of 
pieces of memorabilia which have been brought to that 
particular site. And so these are the types of issues that 
arise as to what the disposition of that material is, whether 
it should be--but I suggest there may be some. So, I think 
there are a lot of questions that have to be answered by those 
that are proposing this in terms of establishing a corporation. 
Some of those questions are answered in the legislation, but 
most often they are not. I can just tell you that I think that 
in terms of obtaining the private funding and the enthusiasm 
and control in terms of this, I think that the model that was 
selected here raised lots of questions in my mind. The purpose 
of it I completely agree with, in terms of private funding and 
the corporation having some freedom, but I do not know why it 
could not be under the nonprofit. We have Nature Conservancy 
and--various pieces of the plan, designate a piece of it as--we 
need to articulate what the responsibilities are much more 
clearly in terms of the Park Service and in terms of the 1916 
Organic Act than what has been done.
    I think some clarifying language--I understand that this is 
going to be marked up tomorrow. And I think that these 
questions are not answered in the testimony that I have read 
from anyone today. I would be happy to yield. My time has 
expired, Mr. Chairman.
    Mr. Hansen. Without objection.
    [The information referred to may be found at end of 
hearing.]
    Mr. Lucas. I appreciate the gentleman for sharing them. 
Just ask for a moment that the gentleman--I think that the 
testimony following in the next three panels there will be some 
opportunities to get on into those various questions, that they 
have been aggressive in working with since the 19th of April, 
since the Task Force has been set up, and I think the gentleman 
will be pleasantly surprised by the careful thought that has 
gone into this and the responses that will be given. I thank 
the gentleman.
    Mr. Vento. I will apologize to the gentleman in advance. I 
looked at just--I read it--preread some of it, and if I will 
not be able to stay for this, I hope that the markup of this 
might be able to facilitate or answer some of these questions. 
So, certainly tomorrow--certainly, Mr. Chairman, that this is 
your decision, but I--thank you.
    Mr. Hansen. I think Mr. Vento has raised some important 
questions, not the least of which I think I touch on, and that 
is in the emotion of the moment, now, and the emotion is still 
very heavy, I think, on the Nation and particularly anyone 
connected with Oklahoma, we can plan grand schemes of things. 
But we have a motion--it has not been easy to raise the private 
money and that kind of thing. Then who is going to take it on 
and continue it? And I think--and in what manner? I think that 
is kind of what you were leading to in a way, Mr. Vento. I 
think that you need to deal with those questions. I do not 
think--I think all of us here want this memorial to succeed, 
and I think that is exactly what you were getting at.
    Well, thank you very much, panel, and we will go to the 
next panel.
    The Mayor of Oklahoma City, Ron Norick; Robert Johnson, 
Chairman of the Oklahoma City Memorial Foundation; and Hans 
Butzer, who is the Designer of the Memorial. We welcome the 
panel. You folks have 5 minutes exactly----
    Mr. Norick. No, that would be fine.
    Mr. Hansen. I appreciate it very much.

      STATEMENT OF RONALD J. NORICK, MAYOR, OKLAHOMA CITY

    Mr. Norick. Mr. Chairman and Members of the Subcommittee, I 
am Ronald J. Norick, Mayor of the city of Oklahoma City and I 
want to thank you for allowing us to be here today.
    As you know, the bombing of the Alfred P. Murrah Federal 
Building in downtown Oklahoma City on April 19, 1995, 
devastated the lives of Oklahoma City residents in a way unlike 
any other event in the history of the United States. I will 
focus my testimony on the impact the bombing had on Oklahoma 
City and why the proposed legislation is so important to our 
city.
    This legislation will not only benefit Oklahoma City, but 
it will benefit all Americans. While this event occurred in 
Oklahoma City, it was an attack on all Americans. It was an 
attack on all the people who believe in the principles of this 
nation. People from every state in the Nation as well as 
thousands of people from outside the United States have visited 
the memorial site. Hundreds of people can be found at the site 
every day in all kinds of weather, at all times of the day and 
night.
    This event touched people not just in the United States, 
but around the world. Thousands of items were sent to my office 
from people from around the world. It has been over 2 years 
since the bombing. Visitation and inquiries about the site have 
not declined. Thousands of people visit the site weekly. More 
than a million people have visited the site since the bombing, 
leaving pieces of them at the chain link fence that surrounds 
the building footprint. They have left hundreds of thousands of 
items, including messages, toys, flowers and shirts off their 
backs as they try to express their sympathy, their compassion 
and somehow understand that this could have happened anywhere 
in the United States.
    This legislation granting National Park status will 
recognize the sacred nature of the site and its significance to 
all Americans. This site of a tragic event has become a special 
place in our nation's identity. It cannot and not and should 
not be forgotten. This is why the city strongly supports this 
legislation.
    Other than the loss of life and the accompanying impact on 
the lives of those touched by the loss, the bombing of the 
Alfred P. Murrah Federal Building tore the heart out of our 
city. More than 300 structures were damaged and 12 buildings 
had to be demolished in the heart of our downtown. Rebuilding 
has been difficult as property owners and tenants, forced out 
of the area by damage to their properties, have been reluctant 
to reestablish in downtown Oklahoma City. Many have not had the 
finances. Special funding provided by Congress in 1995 has been 
absolutely vital to our rebuilding process. The recovery has 
been slow and there still remains a very visible hole in the 
city's fabric.
    The Oklahoma City Memorial, in conjunction with the passage 
of this legislation, will do much to heal that hole. It sends a 
powerful message to the people of Oklahoma City and to the 
Nation that the healing process is well underway, and that 
investment in the renewal of downtown makes good economic and 
civic sense.
    The redevelopment of several of the larger buildings most 
heavily damaged by the bombing will now be possible. The city 
can also begin planning for traffic control, parking, 
streetscape, sidewalk improvements, directional signals, and 
other public improvements required to cater to the restructured 
business district and visitors to the site. Much of this 
planning has been on hold as the city and the property owners 
have struggled with the task of making this area whole again. 
That hold will be lifted by this legislation. Private investors 
who have been holding back until they know the future of the 
area can also begin their reconstruction plans.
    The city strongly supports this legislation establishing 
the Oklahoma City National Memorial Trust. It is vital to those 
most directly affected by the events of April 19, 1995, that 
the story of this tragic event be managed locally. The Trust is 
the best vehicle for doing so.
    Let me say again the tragedy that befell Oklahoma City on 
April 19, 1995, was not a tragedy for all of us in Oklahoma, it 
was a tragedy that affected the whole nation. The effect of 
that tragedy is felt no less today, over 2 years later. It is 
only fitting that a tragedy of such national significance be 
recognized as such, and the legislation I speak in support of 
here today provides that recognition. The city of Oklahoma City 
strongly supports this legislation and we will be happy to do 
whatever is necessary to support its passage.
    Thank you, Mr. Chairman.
    [The statement of Mr. Norick may be found at end of 
hearing.]
    Mr. Hansen. Thank you for your testimony. Mr. Johnson?

    STATEMENT OF ROBERT M. JOHNSON, CHAIRMAN, OKLAHOMA CITY 
                      MEMORIAL FOUNDATION

    Mr. Johnson. Thank you, Mr. Chairman and Members of the 
Committee. My name is Robert M. Johnson. I am Chairman of the 
Oklahoma City Memorial Foundation, serving as a volunteer 
pursuant to the June 1995 appointment by Mayor Ron Norick. I 
appreciate the opportunity to testify before you today.
    In April 1995, just days following the worst terrorist 
attack on American soil, the President and Mrs. Clinton visited 
Oklahoma, and while there they said, ``All of you, the brave 
people of Oklahoma, made it clear to the entire nation and all 
the world that those who sought deeds of terror to divide us 
brought us closer together.'' And he said, ``We will be by your 
side until the work is done.''
    Just 1 month following the bombing, President Clinton told 
the Nation that in the months ahead the Nation would look to 
Oklahoma for the vision and inspiration to appropriately 
memorialize America's tragedy.
    In response, Mayor Norick appointed the 350-member Murrah 
Federal Building Memorial Task Force, known today as the 
Oklahoma City Memorial Foundation.
    The Foundation embraced the challenge of memorializing a 
tragedy in America so unique in our history. We democratized 
the memorial process by making it open and inclusive. There 
have been no political, socio-economic or other barriers to 
participation. Most importantly, we have encouraged, solicited, 
and given great deference to participation by family members 
and survivors in all aspects of this memorial process. This 
memorial process has been transforming and has contributed to 
the healing of our city, our state, and our nation and, most 
importantly, to those most directly affected by the bombing. As 
one family member has said: through the memorial process chaos 
has been transformed into hope and unity.
    Incredibly, amidst all the emotions of the grieving process 
and the healing process, all votes on critical issues have been 
unanimous, including the one in support of the Memorial Mission 
Statement, adopted after months of input from family members of 
survivors and other caring people around the world. The opening 
lines of the Mission Statement are:
          ``We come here to remember those who were killed, 
        those who survived and those changed forever. May all 
        who leave here know the impact of violence. May this 
        Memorial offer comfort, strength, peace, hope and 
        serenity.''
    The Mission Statement requires that the Oklahoma City 
National Memorial consist of an interactive learning museum 
together with an institute dedicated to the prevention and 
mitigation of terrorism and finally a remembrance component. 
This last element was designed by Hans and Torrey Butzer and 
Sven Berg and was selected through an open international design 
competition which drew entries from all 50 states and 23 
countries. This design was chosen on the first secret ballot of 
the Selection Committee by unanimous vote. It was subsequently 
approved by a joint meeting of the Families and Survivors 
Committee and the Board of the Foundation, again by unanimous 
vote.
    By its very nature, as an attack on the American Government 
and our public servants, the April 19, 1995, bombing was an 
attack on each American. Although the bombing occurred in 
Oklahoma City, by no means should this be memorialized as an 
Oklahoma City tragedy or even a State of Oklahoma tragedy. The 
national and international impact make it clear that this is an 
American tragedy. Equally important is the Federal character of 
the site of the attack and the significant number of those who 
died and the survivors who were innocent Federal public 
servants.
    The Oklahoma City National Memorial will memorialize 
America's Tragedy by first preserving the memory of those who 
died and the survivors and the valor of rescue and recovery 
workers, by emphatically confirming the unification of the 
spirit of all Americans in the wake of disaster and by sending 
a powerful message to the world of the senselessness of 
terrorism as a means of effecting societal or government 
change.
    Let me clarify a couple of items regarding our contact with 
the National Park Service. We are here today because in the 
input process that led to the adoption of the Mission 
Statement, it was very, very clear that the strong, strong 
sentiment was that no one does it better in managing a memorial 
project than the National Park Service. They must be involved. 
We contacted them in the process. One of the co-chairs of our 
government liaison committee contacted the Denver office of the 
Park Service in the process of developing the Intergovernmental 
Letter of Understanding, which was executed in October of last 
year. The response from the Denver office was that until the 
designation as a unit of the National Park Service or other 
designation relating to the Park Service was made, that the 
Park Service could not enter into a Letter of Understanding.
    That contact, however, led us to an association with the 
National Park Service to develop an archives program, which we 
are using, with regard to the approximate one million items 
that we have in our archives, that would make our archives 
collection suitable for a unit of the National Park System and 
in compliance with the guidelines for the National Park 
Service.
    By no means have we ever thought about excluding the 
National Park Service from this. We need them. And by no means 
should there ever be a thought that there will not be a 
cooperative agreement. I pledged to the National Park Service 
that we would work a cooperative agreement out, and have done 
so in both in conversations with them and by correspondence.
    Following the development of the bill that was submitted 
earlier to the Senate, I contacted John Cook in the Denver 
office of the National Park Service and discussed the personnel 
that would be involved. And we had correspondence in that 
regard. And we built into our budget a supervisory interpreter, 
two interpreters, two seasonal rangers, and a curator for the 
National Park Service, and those numbers are built into our 
operating budget. We want the Park Service to be involved. And 
I am confident that, given the bill as it stands, I believe it 
is implicit that we would enter into an agreement with them, 
and I commit to you that we would.
    Let me just close by saying that although the response to 
the Oklahoma City tragedy reminded the world that Americans are 
capable of great compassion, selflessness and unity when 
tragedy strikes, by no means is our response complete. We ask 
for your participation in this memorialization effort by 
enacting H.R. 1849. Thank you.
    [The statement of Mr. Johnson may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Johnson. Mr. Butzer?

 STATEMENT OF HANS E. BUTZER, DESIGNER, OKLAHOMA CITY MEMORIAL 
                     FOUNDATION DESIGN TEAM

    Mr. Butzer. Thank you. Torrey Butzer--my wife--myself and 
our design assistant, Sven Berg, who is still in Berlin, thank 
you very much for the opportunity to present this design to 
you.
    Torrey and I will never forget the morning we heard on 
Voice of America radio while we were working in Berlin, that 
the Alfred P. Murrah Building in Oklahoma City had been bombed. 
Although we were an ocean away, we felt shocked that such a 
tragedy could occur on American soil. We also believed it to be 
our duty to make some sort of contribution to the recovery 
efforts.
    The design we are presenting to you today is based 
primarily on the introductory paragraph of the Memorial 
Foundation's Mission Statement:
          ``We come here to remember those who were killed, 
        those who survived and those changed forever. May all 
        who leave here know the impact of violence. May this 
        memorial offer comfort, strength, peace, hope and 
        serenity.''
    With these words, the experience of visiting the Oklahoma 
City Memorial begins. Whether traveling along Harvey, Robinson 
or Fifth Street, the first site of the Memorial Complex is of 
the gates of time. Within the urban fabric, these gates provide 
a powerful identity for the Memorial Complex and clearly 
indicate that this portion of Fifth Street has been closed 
forever. The Eastern gate and its interior sign is inscribed 
with the time ``9:01'', and on the inside wall of the Western 
Gate is inscribed ``9:03.'' These two gates together frame the 
moment and place of this terrible explosion, the time ``9:02.''
    The gates also serve as physical and psychological 
transitions from the busy city streets to a meditative 
landscape rich with soft edges and sounds.
    Beneath the outside gate's wall inscription ``we come here 
to remember,'' one is drawn through the gates into the heart of 
the moment eager to tell its story.
    The footprint of the former Alfred P. Murrah Building to 
the South is covered with soft green grass, sloping up toward 
the warmth of the sun. One hundred and sixty eight empty chairs 
down this grassy slope where the building once stood, reminding 
us of those who died. While the tragedy has affected the 
community and nation as a whole, the 168 individual chairs will 
remind us of the personal loss which resulted on April 19, 
1995.
    The chairs' presence will ensure that future generations of 
Americans will always remember these members of our community. 
These chairs are constructed of a stone seat and back, mounted 
atop a glass block base which is inscribed with a victim's 
name. By day, these chairs appear to float above their 
translucent base, just as our memories of their loved ones seem 
to float past at any given moment. By night, these glass bases 
will be illuminated, representing beacons of hope which lighten 
the night sky.
    The Survivor Tree, witness to the violence of the moment, 
stands to the North commemorating those who survived. Under its 
canopy, grassy terraces step down in contrast to the sloping 
field of 168 chairs beyond. Here, survivors may sit and find 
inspiration to live their lives more meaningfully and better 
appreciate the freedoms they as survivors still enjoy.
    Rushing forth from the city's edges to surround the 
Survivor Tree is an orchard of blossoming fruit trees which 
recognize those who helped. Symbolic in their bearing of fruit, 
these trees allude to the continuing life cycle of those 
rescued and their future generations. The harvesting of the 
fruit in the fall would become the focus of an annual 
celebration honoring those who helped as well as those who were 
rescued.
    Nestled in the northwestern corner of the site, the 
orchard, is a special place for the little helpers--the 
children. A series of chalkboards set in the ground represents 
the many letters and drawings the children sent in support and 
they provide a place for them to continue expressing their 
thoughts and encouragement.
    At the center of this three-acre site, a long reflecting 
pool spans what was once Fifth Street. The sounds of gently 
flowing water provide a peaceful background to visitors' 
thoughts. During the hot summer, the pool will provide cool 
relief. In winter, its surface may freeze, reflecting the warm 
glow of the empty chairs. Dark reflective stone will line the 
pool's surface, making it difficult to see the pool bottom. 
Water will flow over the edges and disappear into a thin 
channel running around the perimeter of the pool.
    And it is here, at the water's edge, that the areas of the 
empty chairs, the Survivor Tree and its terraces, the fruit 
tree and its or-

chard, where these areas meet. And as visitors from all over 
the world gaze into the pool at their own reflections, they 
will see the faces of those changed forever.
    As you can see from our response, this event has touched 
the world. It is our hope that the world will be able to come 
to the site of this event and gain an understanding of what 
happened at 9:02 on April 19th. I respectfully urge your 
support of H.R. 1849, the bill to establish the Oklahoma City 
National Memorial as a unit of the National Park System and 
designating the Oklahoma City Memorial Trust.
    Thank you.
    [The statement of Mr. Butzer may be found at end of 
hearing.]
    Mr. Hansen. Thank you, Mr. Butzer. Mr. Faleomavaega? Any 
questions?
    Mr. Faleomavaega. The gentleman from Minnesota----
    Mr. Vento. Maybe you could recognize him first.
    Mr. Hansen. Fine. I will be happy to recognize the 
gentleman from Minnesota.
    Mr. Vento. I do not want to take away any time--I have to 
leave, Mr. Chairman. I want to direct my comments to you 
concerning this proposal. I do not doubt--I commend the Mayor 
for the quick action of the Task Force and so forth. Mr. 
Johnson, I listened to your comments with regard to the Park 
Service issue. It obviously has come up unexpected. I did not 
mean to do that today either, so I am not very----
    I just hope that you realize I was trying to ask questions, 
but I raised these questions in good faith. No one prompted me 
to do this. It certainly comes out of the background in terms 
of having worked with these topics. So, many other questions 
with concession policies, commercial applications, fundraising 
efforts onsite. And most of those--if we are going to convey 
these types of responsibility to the corporation, that we just 
do not know. It is not an entity that we do not--it is unknown 
to us and we do not know about this. So, I think we are 
concerned about it.
    So, I hope that this Memorandum of Understanding, the final 
policies, should--because you have got to have some sort of 
accountability. I understand that somebody else is raising all 
the money, why should the Park Service tell you what to do? I 
mean, that is really I think what the--part of the issue here 
is. But where we feel uncomfortable, at least I do and I think 
many Members, but nobody wants to--we all want to support this, 
but we need to have some assurance in terms of these policies 
that evolve. We know that in the context of the laws that we 
have, the laws regarding memorials and their construction, 
designation, maintenance--obviously that is apparently not 
acceptable to some. I would hope that would be the first 
instance.
    But beside that I think we need--we at least need at least 
some assurance that the Park Service when they get the 
Memorandum of Agreement here, that in fact they will have 
something to say about the general management plan.
    On the other issues, I know that you employed the state 
historic preservation office--at least I assume it was the 
state historic preservation office, the Oklahoma Historical 
Society, in reference to one of the----
    I have read this material now and I have these questions. 
And I think that they need to be answered before you move from 
the Subcommittee, Mr. Chairman, to the full Committee. And I do 
not know that--I do not mean to--I understand that you are 
going to mark it up, and you perhaps were not aware that these 
questions had been raised. They have been, so I ask you to 
consider that before you--I think it would be a better time to 
do this before we move it along----
    Mr. Hansen. Thank you. I appreciate it.
    Mr. Vento. Thank you, Mr. Chairman. I have to leave. I am 
going to excuse myself. Thank you.
    Mr. Hansen. The gentleman from Colorado?
    Mr. Hefley. Thank you, Mr. Chairman. I think that it is an 
enormous memorial to Oklahoma and to Oklahoma City, the way you 
move about this task of coming to this point. Not only the way 
you dealt with the tragedy in time and the way you deal with--
Mr. Mayor, I think it is a tribute to your leadership that this 
has moved with the smoothness and as fast as it has. And, Mr. 
Johnson, you have taken on an enormous task, and you are to be 
commended as well.
    I think the design concept is, and the way it is described 
and the way we see it in the pictures, it looks like a 
wonderful design and concept. Who am I to criticize the design 
concept? But I think you may have missed--or maybe you have not 
and I have just overlooked it--and that is one of the signs of 
loss, which this commemorates I think very well, that ought to 
be commemorated here is the bravery of the firefighters. Every 
firefighter who entered that building was taking their life in 
their hands. There were lives lost trying to pull this rescue--
I remember that the nurse, for instance, that was lost. And I 
also remember the very dramatic pictures of the fireman with 
the little baby coming out.
    At the Vietnam Memorial, the wall is the focal point, but 
there is a marvelous sculpture commemorating those young 
soldiers who fought in Vietnam, which is beside the wall. And I 
wonder if, Mr. Butzer, if any consideration was given to a 
sculpture memorial to those firefighters, from not just 
Oklahoma but around the country, who risked their lives in that 
rescue effort. Was there any--or is there something here that I 
am not seeing?
    Mr. Butzer. For us the issue came down to an all-
encompassing notion of those who helped. And my wife and I have 
always considered this orchard, which is surrounding--and that 
to the right side, which in effect comes around from the 
streets' edges and surrounds the Survival Tree. We have always 
termed that as the ``Orchard of Helpers.'' And this orchard, 
and its fruitbearing nature, is for us a very clear indication 
of the appreciation shown to, among those, the firefighters, 
the medical and police people from all over the nation, to 
indicate how important their role was in the rescue efforts.
    Mr. Hefley. I think that is a perfectly good approach to it 
all, although it is a bit subtle. And unless someone has an 
interpreter there to interpret that, most people who see the 
orchard will not understand that. Or maybe there would be a 
plaque or something that will tell it. And I wonder if you give 
the--those brave people who went into that building the--Mr. 
Johnson, you can comment.
    Mr. Johnson. Yes. Mr. Hefley, we will be developing an 
interactive learning museum in the building just on the north 
side of the remembrance site, and in that museum one of the 
focal points that is very important to us is to underscore the 
valor of the rescue and recovery effort. And it was an 
incredible effort of public and private sector combined that 
you saw in the days following the bombing, and that is where it 
will be told in detail.
    Mr. Hefley. Well, I have always thought that the 
firefighters, and I see your Fire Chief is here, but that the 
firefighters had the most dangerous public service jobs in 
America, more dangerous than the police, although I do not take 
away from that. When a firefighter--walk in that building and 
they go and risk their lives, and certainly this--every night 
on television it was depicted the bravery of these people. And 
I just want to make sure you do not overlook them, and I am 
sure you would not. You have shown enormous sensitivity in 
everything that you have done. So. But I just wanted to make 
that point. Thank you.
    Mr. Hansen. Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Mr. Chairman. Gentlemen, I 
think you know what seems to be the single issue here before 
you--the proposed legislation. I do not think there is any 
question in anybody's mind on both sides. One of them--
according to what our friends from the National Park Service 
indicated earlier, they are kind of bent out of joint by this. 
It seems like they were not part of the process. And as--by the 
gentleman from Minnesota, the concern about the trust, based 
on--you are asking for a $5 million authorization as part of 
the process, extension of funds for this purpose? I would like 
your comments about the concerns that the National Park Service 
has indicated earlier. Mr. Johnson?
    Mr. Johnson. I would be pleased to respond. Let me say 
first that in the development of the Memorial Mission 
Statement, again, we made it clear that the strong sentiment 
was that this memorial should be operated by the National Park 
Service. It should be a National Memorial because of all the 
reasons mentioned. In the months that followed the adoption of 
the Mission Statement in March 1996, there was increasing press 
coverage of the budgetary dilemma of the Parks System. The most 
recent article that I have seen was in the August 29th issue of 
``U.S.A. Today'' where they alluded to possibly needing $8 
billion to cure the difficulties. And the point of the article 
is consistent with others that I have seen, and this is by no 
means criticism of management of the Park System. The best 
managers cannot do their job without the funds do so. But the 
article made it clear that the public will either need to lower 
its expectations of the quality of maintenance of the National 
Park units, or Congress will need to appropriate more money, 
which is unlikely, or the Park System must find new revenue 
sources, and those may include combines with local communities 
and other entities outside the lines of the model that has been 
used for units of the National Park System in the past.
    We have attempted to do that. We could have come here with 
our hands held out and saying: this is a terrible tragedy and 
we want you to pay for it. But we have intentionally avoided 
doing that. We want this memorial to have a widespread public 
participation, and therefore widespread public ownership. We 
can only do that if the private sector bears the brunt of the 
cost.
    So, what we are asking for in light of the increasing 
attention to the budgetary dilemma of the Park System is give 
us a combine that perhaps can be a model for other units, 
although our focus is simply on ours. Give us a model that 
allows these things to happen. We can assure compliance with 
the guidelines of the National Park System. That is first and 
foremost on our list. We are not going to build a world-class 
National Memorial and then not maintain it, as they have been 
able to maintain units in the past.
    Give us a model that allows us to retain money that may be 
generated from visitation fees, which we would like to avoid, 
but the reality is it probably will be a necessity, unless our 
endowment fundraising exceeds our expectations. But allow us to 
retain those funds for this project for future maintenance and 
enhancement and give us a model that allows both the Park 
System and those who have worked so hard and developed such a 
sense of ownership in this, particularly families and 
survivors, to both participate, neither to the exclusion of the 
other. And we think we can do that.
    It is not clear from the Bill, as Ms. Finnerty has pointed 
out, that a cooperative agreement is required. Absolutely there 
will be one. There must be one. And by no means is this a 
project where we may ask them to be involved. Never have we 
said that we would do anything other than ask them to please be 
a part of this project.
    So, we think this satisfies all of those requirements. It 
gives us the ability to perhaps maintain it at a level higher 
than would be the case with the Park System, and yet involves 
both collaboration of the private sector and the Park System in 
management.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Hansen. Thank you. Mayor.
    Mr. Norick. Yes, I do. I think that, as was said earlier in 
the discussions, we knew that really the National Park Service 
was the right entity for us to model and to operate this 
memorial, because this is a memorial, and more than just to 
Oklahoma City. This is a memorial of a nation for the Federal 
employees. And it would not be fair if they were not involved, 
because this really is part of the national fabric. And I feel 
comfortable that within the legislation--I just--there is one 
very brief statement on page 12 of the bill that says: within 1 
year after the enactment of this Act, the trust, in 
consultation with the Secretary, who is the Secretary of the 
Interior, shall develop a comprehensive program for management 
of those lands, operation of facilities within the memorial 
established by this Act.
    I mean, that right there is a clear understanding that we 
want to be a part of working in cooperative agreement, that it 
will only operate efficiently when both parties agree to the 
operation. We want the help the Federal budget by providing 
those funds privately and the operation of that fund. That is 
the reason this Act--this bill only calls for a one-time 
appropriation. And with that I think it is imperative this 
trust does have operational control. If you will also note in 
the law also that it--that the President of the United States 
is the one that appoints the members of this trust. Their names 
are submitted by various entities in the State of Okla-

homa, but the President of the United States has the overall 
ability to appoint the members of that trust, and that 
obviously shows that we want the Federal Government heavily 
involved in this.
    Mr. Hansen. Thank you, Mayor. We will vote and come back, 
the last time. Excuse me, gentlemen. The gentlemen from 
Oklahoma?
    Mr. Lucas. Thank you, Mr. Chairman. And, once again, Mr. 
Johnson, will you discuss for just a few moments the financial 
background on this proposal?
    Mr. Johnson. The budget for the remembrance component, the 
outdoor area that is the subject of the designs as described, 
is approximately $10 million. The budget for the interactive 
learning museum in the building just to the north of the 
remembrance component is approximately $7 million. We are also 
committed to raising approximately $5 million to permanently 
endow the institute that I spoke of. We will also be providing 
an archives facility at approximately $600,000. And all of that 
taken together with foundation expenses give us a budget of 
approximately $24 million.
    Our plan for the raising of that $24 million has nothing to 
do with where we are today. The $5 million we are asking of you 
will be created as a partial endowment for operation and 
maintenance. We will be asking the state for $5 million of the 
$24 million and the balance, the $19 million, will be coming 
from the private sector, three of which has been raised today.
    Mr. Lucas. So, the way you describe the situation, it will 
create a situation where the Park Service would not have to 
have an additional annual operating sum appropriated by this 
Congress and that the funds that would be generated from this 
financial effort would also pay for the Park Service presence 
as envisioned in--statement and the various entities, including 
the Park Service?
    Mr. Johnson. It basically pays for the Park Service 
presence if we use the six personnel that have been suggested 
by the Denver office: the supervisory interpreter, two 
interpreters, two seasonal rangers, and curator. The estimated 
compensation for those six is $260,000 a year. If we use that, 
then the $5 million, you would be taking a 7 percent yield on 
that from the endowment that would give us $350,000 a year. So, 
we are only asking the Federal Government for about $100,000 in 
operating income interest on that endowment a year in addition 
to the Park Service personnel costs.
    Mr. Lucas. Thank you. I must say, Mr. Chairman, that I 
congratulate the Mayor on leadership he has shown through the 
tragedy and since then, for the way the community has worked 
and pulled together. Of course, the architect, what is your 
design. If I could in my final seconds ask Mr. Johnson if we 
would care to address any of the comments made by--put together 
with the time----
    Mr. Johnson. I do not think there is--I would hope no one 
will leave here today thinking that anyone with the Oklahoma 
City Memorial Foundation or anyone else involved in this 
memorial has made an effort to exclude the National Park 
Service. To the extent of our involvement, we certainly have 
not. We have sought their assistance. We will continue to do 
so. And I will underscore the comment I made before, and that 
is we need them involved. They know how to do this and we want 
them involved.
    I think this model gives the Federal Government--a wholly 
owned government corporation gives the Federal Government more 
control than if it is the Oklahoma City Memorial Foundation 
working with the National Park Service. The down side is not 
great. If this does not work, you created it, it is a single-
purpose limited-activity agency, in essence, and you can unwind 
it. But we have every reason to believe that it is feasible, it 
will work, and hopefully we will see that it will work on other 
projects.
    Mr. Lucas. And as you would note, Mr. Chairman, a huge 
amount of effort and time and personal resources and very 
thoughtful planning and research has gone into this effort. I 
assure you this has not been a casual thrown-together bill. 
This entire effort has been put together with the detail that 
you have heard from this panel today.
    Mr. Hansen. Well, I believe you said that the cooperation 
is awesome, the cooperation of the people of Oklahoma, the 
Mayor, the Federal Government. I appreciate what you said about 
the process, and they are good at that. You do a good job. I 
have to say there are a few little points I would like to see--
and also that Mr. Hefley--I guess most of us were just 
entranced with this. It is like the Persian Gulf War, where you 
were just affixed on the television sets when this occurred, 
and you have to say that the--those who went in did a 
tremendous job of pulling out the survivors--memorial 
somewhere, because that was an unbelievable effort. I want to 
compliment the gentleman from Oklahoma, Mr. Lucas, for putting 
this together and then trying to bring--some armed services----
    And you should be complimented on that. We have got one 
other great panel here that I would like to hear what you have 
to say, but we are all running out of time. So, I--will turn 
the chair over to him, and we will quickly run over and try to 
vote, take care, and be back as fast as we can. But if you will 
continue going, I would appreciate it.
    Mr. Faleomavaega. [presiding] Mr. Chairman, I would like to 
compliment the gentleman from Oklahoma for his sponsorship of 
this legislation. And the record is clear, contrary to what we 
have heard earlier, that there was close consultation with the 
Denver office, and for a reason suggested a number of Park 
Service staffing and expertise that----
    Well, thank you, gentleman for your testimony. We would 
like to proceed now with our next panel.
    For the record, Mr. Welch, a Oklahoma City resident; Mr. 
Don Rogers, the former Building Manager at the Murrah Federal 
Building; and Mr. Gary Marrs, the Fire Chief for the city of 
Oklahoma.
    Mr. Welch, would you like to proceed?

STATEMENT OF EMMETT E. ``BUD'' WELCH, RESIDENT, OKLAHOMA CITY, 
                            OKLAHOMA

    Mr. Welch. Thank you, Mr. Chairman and Members of the 
Committee. I am Bud Welch. My 23-year-old daughter, Julie Marie 
Welch, was killed April 19, 1995, in the Murrah Building 
bombing.
    Julie had graduated from Bishop McGuiness High School in 
1990 after being a foreign exchange student with Youth for 
Understanding. She lived with a family in Pontevedra, Galicia, 
Spain, for 1 year between her sophomore and junior years in 
high school.
    She received a foreign language scholarship from Marquette 
University in Milwaukee and entered school there in August 
1990.
    Julie spent her sophomore year in college in Madrid at 
Marquette's campus in conjunction with the University of Madrid 
in Spain. She received her degree in Spanish from Marquette 
with a minor in French and Italian. Upon Julie's death, Julie 
spoke Spanish, French, Portuguese, Italian, English and knew 
enough German to travel. And she actually spoke a little bit 
of--also, which is my second language. She had graduated from 
Marquette University in 1994.
    Julie was the Spanish translator for Social Security. I 
brought Julie back to Oklahoma City over the Fourth of July 
weekend in 1994. That was our last long travel together. She 
was employed by Social Security the following month. She was 
hired under the Federal Government Honors Program.
    Julie Marie was my only daughter, my pal, my confidant and 
my friend.
    I was to meet Julie at 11:30 that fateful Wednesday morning 
for our weekly luncheon at the Athenian Greek Restaurant across 
the street from the Murrah Building. This is west of the 
Survivor Tree.
    It became very important that the old faithful American 
Elm, now known as the ``Survivor Tree,'' be included in the 
planned Memorial. That was Julie's favorite place to park and 
this tree survived the blast that so many people did not. The 
dead have since been buried, the survivors have been relocated, 
and it is the only living thing left there.
    Working closely with the Memorial Foundation has helped me 
tremendously in my healing. I look forward to that continuing 
with the dialog with strangers once our new beautiful Memorial 
is built.
    I believe it should be a National Memorial with a National 
Park status:
          The majority of the victims were Federal public 
        servants. They died in service of their country.
          The crime happened on Federal property and stemmed 
        from what some believed were problems with Federal 
        policies.
          The people of this nation and the people of the world 
        expect the United States of America to recognize this 
        as a National Memorial.
    I base that on the thousands of cards, letters and 
telephone calls that I have received from more than 30 foreign 
countries, every province in Canada and also the territories of 
Canada, and every State in the Union.
    Let us please do not let the world down. I urge you to 
support H.R. 1849 to establish the Oklahoma City National 
Monument and designate the Oklahoma City Memorial Trust.
    We will build the memorial regardless of how this 
legislation turns out. We want the blessing of the U.S. House 
of Representatives, Senate, and the President of the United 
States. That is the main reason that we are here. We want 
Federal recognition.
    Mr. Chairman, thank you for this opportunity. I would be 
happy to answer any questions at this time. In fact, I would 
encourage questions. Thank you very much.
    [The statement of Mr. Welch may be found at end of 
hearing.]
    Mr. Faleomavaega. Thank you, Mr. Welch. Mr. Rogers?

 STATEMENT OF DON ROGERS, FORMER BUILDING MANAGER, A.P. MURRAH 
           FEDERAL BUILDING, OKLAHOMA CITY, OKLAHOMA

    Mr. Rogers. I wish to thank Congressman Frank Lucas and the 
Members of this Committee for allowing me to testify on an 
issue I feel so strongly about.
    I am Don Rogers, Manager of the Alfred P. Murrah Federal 
Building in Oklahoma City on April 19, 1995. I am a survivor of 
the bombing, injured in the building on the first floor near 
the center of the building.
    I would like to tell you part of my story, which occurred 
on a date that so many of us will never forget:
    The moment the bomb detonated, I was standing near the 
elevator lobby, just having completed a meeting which was held 
in my office (situated against the glass wall where the Ryder 
truck was parked). I had walked out into the hall after the 
meeting to have a side discussion with Robert Dennis, Court 
Clerk of the U.S. District Court. Quickly we were engulfed in 
total darkness--unable to see or breathe. I was choking for air 
when I came to the realization that someone was calling my 
name. Somewhat confused and unable to see, I reached toward the 
direction of the voice. In doing so I was able to grasp Bob's 
arm. Together we climbed over the debris trying to reach 
safety. It was as if we were crawling through a cave, except 
there was no air to breathe nor light to see. Beginning to feel 
somewhat ``entombed'', we became determined to find a way out. 
While we were attempting to get out of the building, Bob and I 
rescued two other ladies, Dot Hill and Pam Lacy. We were able 
to help them and we found a way through the rubble to the west 
side of the building.
    We quickly realized that things were not much better 
outside of the building. The north half of the building had 
been blown inward; a large gaping hole was all that remained of 
that portion. On the street approximately twenty-five cars were 
on fire. I was confused as to what could have possibly occurred 
to cause such damage. Realization hit me again with the impact 
of a blast, that I was immediately concerned for the children 
in daycare and the tenants in the building that I was 
responsible for managing.
    I ran to the south of the building to gain entry and found 
men using makeshift ladders from the playground fences to climb 
into the building, trying to rescue those inside. The east 
stairwell was blocked by rubble so I could not continue to 
higher floors, so I went back to the plaza level. Looking 
upward I tried to determine the best approach I could, when I 
saw a man pinned against the inner south wall, hanging out of 
the building. The top of his head was missing, the lower 
portion of his body was completely crushed, yet he raised his 
head asking for assistance: ``Help me. Please help me.'' A 
moment later his life was gone. The Federal workers trying to 
pull him free realized that their efforts were in vain. Nothing 
could be done. Although my eyes were full of smoke and dust and 
debris, I have a clear memory of viewing this man's losing 
struggle with death.
    Members of the Fire Department were arriving to assist in 
the rescue efforts already under way. Again I attempted to 
enter the building in an effort to find employees and children. 
The fire-

fighters saw me and insisted that I needed medical attention 
for my eyes and my multiple lacerations.
    I was treated at the local hospital that day, released in 
the afternoon, and returned to the building to help the rescue 
workers search for survivors and assist in identifying bodies. 
I remember thinking that this could not be the same building 
that I had worked for 19 years. It was difficult to identify 
anything. It seemed as though we were going down into a large 
cavern with debris heaped up on the ground and hanging down 
from the ceiling.
    I remember seeing one body that did not resemble a person; 
it was a mass of flesh and material embedded in rocks and 
crevices. The fireman with me at the time told me that this was 
a lady wearing a black dress imprinted with roses. I remembered 
that I had seen this woman as she stepped off the elevator, 
walking past me and toward the front doors just moments before 
the blast.
    The reason for telling my story today is that there are a 
thousand other stories to be told by the rescue workers, 
survivors, firemen, policemen, and medical personnel.
    The innocent laughter of the children nor their footsteps 
(as well as that of my friends and coworkers) will never be 
heard again.
    Life's evening sun has set for 168 Americans, which will 
not rise again on this earth. The contributions of these 
individuals to their families and communities, local churches 
and civic groups were ended before any of them had the 
opportunity to do great things. However, each one of them was 
considered ``great'' by family and friends, thus resulting in a 
great loss to our nation.
    We wish to let the world know that violent acts must be 
prevented. The proposed memorial would provide hope that future 
violent acts of this magnitude can be prevented and serve as a 
reminder of how people can (and should) reach out and care for 
one another with compassion.
    We, as a nation, as a society, governed by the citizens, 
feel an urgency to construct an appropriate memorial in order 
to remember the value of those who perished (infants, children, 
sisters and brothers, parents, grandparents) the strength of 
the human spirit, and the loss of innocence experienced by 
America on that day.
    And unless we establish this memorial as a national 
monument to remember those who were killed, those who survived 
and those who were changed forever, plus provide a place for 
people to gain an understanding of the impact of violence, and 
also provide a place which offers comfort, strength, peace, and 
hope, the affliction of this American tragedy will be 
unresolved.
    Thank you very much.
    [The statement of Mr. Rogers may be found at end of 
hearing.]
    Mr. Faleomavaega. Mr. Marrs?

STATEMENT OF GARY B. MARRS, FIRE CHIEF, OKLAHOMA CITY, OKLAHOMA

    Mr. Marrs. Mr. Chairman and Members of the Subcommittee, I 
am Gary Marrs, the Fire Chief for the Oklahoma City Fire 
Department. On behalf of the more than 1,000 firefighters in 
Oklahoma City and those from 43 fire departments and a large 
number of law enforcement agencies that came from near and far 
to help in the rescue and recovery efforts, I would like to 
thank you for the opportunity to testify before you today.
    As you know, at 9:02 a.m. on April 19, 1995, Oklahoma City 
was the target of a senseless act of terrorism. Within a few 
seconds all of our lives were changed forever. The tragic loss 
of life and the countless injuries were devastating to our 
community.
    Seconds after the bombing, a massive response of public 
safety agencies, health care providers and the general public 
occurred. The first arriving fire department personnel from 
Station 1 were faced with an overwhelming rescue operation. 
Buildings were damaged over a 60-square block area and a large 
number of vehicles were on fire. Major structural damage 
occurred not only in the Federal Building, but in a 26-story 
400-unit apartment building, a six-story office building, a 
three-story office building, a two-story building with a 
restaurant and a basement across the street, and in several 
buildings in a four-block area.
    As we approached the scene, we began encountering debris in 
the road several blocks away from the Murrah Federal Building 
site. Firefighters began walking in front of the apparatus to 
move the debris out of the roadway. In addition, they began to 
encounter injured people walking away from the blast. A number 
of our units began to immediately treat injured survivors and 
quickly realized that there were going to be hundreds more.
    Dozens of rescue and recovery workers formed human chains 
as we began to pass victims from the building into the street. 
All of the individuals rescued alive from the Murrah Federal 
Building and the surrounding structures were rescued on that 
first day within the first 12 hours of the operation. Many of 
the rescues accomplished that day by Oklahoma City firefighters 
and the hundreds who assisted them would have been dramatic 
events if they had happened individually. The fact that they 
occurred as part of an incident of this magnitude overshadowed 
the hundreds of individual acts of professionalism, and in many 
cases heroism, that occurred that Wednesday in April and the 
days that followed.
    FEMA workers and 11 Urban Search and Rescue Task Force 
teams came to Oklahoma City with hope they could help us find 
more survivors and to help all of us. Today, spread out across 
the United States, each rescuer has an understanding that this 
event was not just an Oklahoma event--it was an event that 
touched the nation. It has reached coast to coast.
    The outpouring from people was unbelievable. From the 
wheelbarrows filled with ice and drinks, to a national pizza 
chain onsite serving more than 10,000 free pizzas, to a supply 
room filled with everything from bandannas to rain suits to 
batteries. We would ask for something and people would bring it 
to the site. People donated clothes, food, equipment, and 
supplies in record numbers to support the rescue operations. If 
a request for some specialized service was made, such as 
veterinarians for the search dogs, the response was immediate 
and overwhelming. More than 1,000 cellular telephones were 
handed out free to emergency personnel and all the air time was 
donated by the companies.
    Establishing a National Park on the site of this attack is 
appropriate to honor the victims, the survivors, and the rescue 
and re-

covery workers and to show the world the shining example of how 
a community can come together to rise above adversity.
    As Oklahoma City Police Chaplain Jack Poe has said since 
the bombing, the ``Oklahoma Standard'' means a new level of 
caring. The Oklahoma City National Memorial will do just that. 
Mr. Chairman, again, thank you for giving me the opportunity to 
represent all of the brave men and women who worked for 18 days 
under impossible circumstances on behalf of our community and 
our nation.
    [The statement of Mr. Marrs may be found at end of 
hearing.]
    Mr. Faleomavaega. Gentlemen, I cannot find any words in the 
English language equal to what you have said this morning. 
Without question our nation was moved with compassion and 
sympathy for those individuals and innocent children who 
suffered----
    I sincerely hope this legislation will move forward with 
constructive suggestions from our friends in the National Park 
Service and the Administration, and that we will proceed toward 
passage of this bill. And I think it is only appropriate that I 
would like to take time now for a statement from Oklahomans who 
sponsored this bill.
    Mr. Lucas. Thank you, Mr. Chairman. I appreciate the 
Committee committing to sit through the Committee hearing on 
this bill and I apologize to the panel for not being here for 
the whole discussion----
    Clearly what you have seen and done in connection with this 
tragic event are the kinds of things that no one should ever 
have to see or ever have to do. It is reassuring to know that 
in our society, in Oklahoma, across the nation, that people 
under the most horrible circumstances can rise to the occasion 
to do what is necessary to help their fellow human beings. And 
that in many ways you have helped restore my beliefs in my 
personal--my faith in my fellow human beings and in humanity. 
And I personally appreciate you coming today to discuss what 
you went through and what you have gone through and what you 
are going through, because it means so much, I believe, to the 
message that H.R. 1849 has drawn across this country.
    And for that, thank you. I know it was not easy to prepare 
and I know it was not easy delivering your testimony. I must 
say this to the Committee and for the record: I truly believe 
that this piece of legislation in its original is not only the 
best intentions of everyone involved but the most careful and 
deliberate planning and thought, with hands extended to 
everyone in an effort to do what is right, not only for those 
168 folks who lost their lives that day and in the days and 
hours afterwards, but also for the rescuers and every one who 
had a physical part in the process, then and in the recovery--
--
    So with that, Mr. Chairman, I would simply want to state 
for the record that I appreciate the opportunity to set up all 
these panels. I truly appreciate the Subcommittee's willingness 
to hear the testimony and hold a hearing on H.R. 1849. And I 
would certainly respectfully urge the Subcommittee and the full 
Committee to perform the mark up at the earliest opportune 
moment.
    Thank you, Mr. Chairman.
    Mr. Faleomavaega. I thank the gentleman for his comments 
and again, on behalf of the Chairman of the Subcommittee--I 
thank you, gentlemen. The hearing is adjourned.
    [The photographs may be found at end of hearing.]
    [The Letter of Understanding may be found at end of 
hearing.]
    [The Memorial Mission Statement may be found at end of 
hearing.]
    [Whereupon, at 1 p.m. the Subcommittee was adjourned.]
    [Additional material submitted for the record follows.]
Statement of Maureen Finnerty, Associate Director, Park Operations and 
   Education, National Park Service, U.S. Department of the Interior

    Mr. Chairman and members of the Subcommittee, thank you for 
the opportunity to appear before you to address H.R. 1849, a 
bill to establish the Oklahoma City National Memorial as a unit 
of the National Park System and to create a government 
corporation known as the Oklahoma City Memorial Trust to manage 
the memorial. First and foremost, let me say that we support 
the goal of establishing the memorial as a unit of the National 
Park System. The significance of the tragedy of the bombing of 
the Alfred P. Murrah Federal Building in Oklahoma City, and the 
meaning and implications of this event for our nation, compel 
the establishment of this memorial as a visible and prominent 
national shrine. While we support the establishment of this 
memorial, we have significant concerns over certain aspects of 
its management as proposed in H.R. 1849 and strongly recommend 
an alternative management arrangement. In raising these 
concerns, we share the sponsors' goals for expeditiously 
creating an excellent, well-managed national memorial that 
appropriately communicates and reflects the meaning of the 
Oklahoma City bombing to the nation.
    If enacted, H.R. 1849 would create a new unit of the 
National Park System in Oklahoma City--a memorial to recognize 
the profound changes brought to so many lives the morning of 
April 19, 1995. The legislation would direct the National Park 
Service, upon the request of the Oklahoma City Memorial Trust, 
to provide technical assistance to the Trust and, along with 
other Federal agencies, to carry out day-to-day visitor service 
programs at the memorial.
    After the bombing of the Alfred P. Murrah Federal building, 
President Clinton declared a national day of mourning for the 
victims of the bombing. He asked the people of the United 
States to pray for the victims and the community when they 
gathered in their places of worship. The President also 
traveled to Oklahoma City on that Sunday to participate in a 
memorial service for the bombing victims. At the service, the 
President personally thanked all those who worked heroically to 
save lives and he pledged to do all he could to help heal the 
injured, and to rebuild the city. The President promised to 
stand by the people of Oklahoma City for as long as it took. 
Creating a permanent memorial for the victims of the bombing 
helps fulfill the spirit of that pledge.
    After the Oklahoma City bombing, citizens throughout the 
Nation expressed their solidarity in many ways. Along with the 
national day of mourning and the rededication of public 
servants to their calling, personal mementos were left, and 
continue to be left at the site of the bombing. Through mayoral 
and citizen action, the Oklahoma City Memorial Foundation was 
established to create an appropriate memorial on the site. The 
Foundation has done a tremendous job of involving the public, 
defining its mission and goals, and holding a design 
competition for the memorial. Building upon these local efforts 
is the legislation introduced by the Oklahoma delegation.
    While the circumstances compelling the establishment of a 
national memorial to the Oklahoma City tragedy as a unit of the 
National Park System are extraordinary, the approach to 
managing this memorial should benefit from proven National Park 
Service models. Because the National Park Service was not part 
of the process that developed the Intergovernmental Letter of 
Understanding, dated October 28, 1996, we could not provide our 
suggestions at that time. We appreciate the opportunity 
provided by the legislative process to share our views now 
about the most appropriate and effective role for each 
organization and governmental entity involved in the memorial.
    Mr. Chairman, we support the objective that this new unit 
of the National Park System be managed and administered in 
close cooperation with, and with the full involvement of, local 
citizens and entities. As proposed, however, the legislation 
provides no role to the National Park Service in the management 
or administration of this new park unit unless the Oklahoma 
City Memorial Trust requests its involvement for certain 
limited purposes. Essentially, the legislation provides 
complete control over this new park unit to the Oklahoma City 
Memorial Trust, a wholly-owned government corporation. This 
management approach raises several concerns and should be re-
evaluated in light of other proven approaches which incorporate 
substantial local involvement and utilize public/private 
partnerships for specific purposes.
    One significant issue for reconsideration is the 
establishment of the Oklahoma City Memorial Trust as a wholly-
owned government corporation. In a 1995 report prepared by the 
Congressional Research Service for the Senate Committee on 
Governmental Affairs, a government corporation was defined as 
``an agency of the government, established by Congress to 
perform a public purpose, which provides a market-oriented 
service and produces revenue that meets or approximates its 
expenditures.'' The transmittal letter from the Committee 
stated that ``government corporations are an appropriate option 
only when certain conditions are present, such as a 
sustainable, commercial-type revenue stream, and that the 
misuse of the corporate concept can actually result in a 
weakened capacity of the executive branch to meet its statutory 
requirements and the capability of Congress to hold agencies 
accountable for their activities and financial obligations.''
    The only example of the use of a government corporation in 
the National Park System is the Presidio Trust, established by 
legislation enacted last November. The Presidio of San 
Francisco presented a tremendous management challenge. The 
military transferred an enormous complex with many buildings to 
the National Park Service. In that case, the National Park 
Service needed the expertise of people familiar with business 
and real estate in the city of San Francisco who could 
effectively lease buildings and provide other mechanisms to 
assure that the Presidio's buildings were protected. While 
entrepreneurial revenue-generating goals are appropriate for 
the Presidio, we question whether they are as appropriate for 
the memorial.
    It was clear to us from the testimony given at the field 
hearing in Oklahoma City that it is the wish of local citizens 
and the State of Oklahoma to retain a strong level of local 
control and involvement in all aspects of the memorial's 
operation and interpretation. We believe that the legislation 
could best achieve this by directing the National Park Service 
to manage the memorial in cooperation with the Oklahoma City 
Memorial Foundation, which could operate without the Federal 
restrictions that would be imposed on a government corporation. 
The general guidance for this cooperative effort could be 
outlined in legislation, and the specific aspects of the 
partnership developed through cooperative and interagency 
agreements.
    We would be pleased to provide examples of public laws for 
existing National Park System units which involve partnerships 
with municipal or private institutions, as well as examples of 
cooperative and interagency agreements at existing National 
Park System units. Clearly, there is a need for the Oklahoma 
City Memorial Foundation to continue in its role as fundraiser 
for the construction of the memorial and to establish an 
endowment to ensure the continued maintenance and preservation 
of the memorial. We believe that many existing National Park 
System units can serve as legislative models for a partnership 
which would include the Foundation, as well as Federal, State 
and local agencies.
    We commend Congressman Lucas, and the other members of the 
Oklahoma delegation in their efforts to appropriately 
memorialize the lives of the innocent victims of the Oklahoma 
City bombing. We look forward to working closely with the 
delegation and the Committee staff in developing a legislative 
concept which will work well for the Oklahoma City Memorial 
Foundation, the National Park Service, and all of those who 
have been affected by this tragic event.
    That completes my remarks Mr. Chairman. I would be happy to 
answer any questions that you may have.
                                ------                                


  Statement of John Pouland, Regional Administrator, General Services 
                             Administration

Mr. Chainnan and Members of the Committee:
    My name is John Pouland, Regional Administrator of the 
General Services Administration (GSA) for the Greater Southwest 
Region which includes Oklahoma. I am pleased to appear before 
you today in support of House bill H.R. 1849, and its Senate 
counterpart S. 871, bills to establish the Oklahoma City 
National Memorial and to designate the Oklahoma City National 
Memorial Trust. The Alfred P. Murrah Federal Building was part 
of the GSA; inventory and the legislation directs GSA to 
transfer the building site to the Oklahoma City National 
Memorial Trust.
    On April 19, 1995, a vicious attack on the Government 
killed 168 people, including 19 children, and destroyed the 
Murrah Federal Office Building in Oklahoma City, Oklahoma. 
Nobody who has heard about this senseless act of terrorism, 
seen the horrible pictures of human suffering and total 
destruction, or was in any other way personally affected by 
this tragedy will ever forget that day. We will always remember 
where we were when the news shocked the Nation and the world. 
Recent events such as the McVeigh trial and the sentencing 
caused us all to relive those tragic moments and listen to the 
heartwrenching stories of the survivors and the victims' 
families. Who will ever be able to erase the pictures of the 
small child in the arms of the firefighter etched into our 
minds and hearts forever?
    I am here today, to support an effort which will help the 
people of Oklahoma and the rest of the Nation to continue the 
healing process. As the President stated dur-

ing the Ceremony on behalf of the Oklahoma City Memorial 
Foundation last month, ``The Memorial design is elegant. It is 
symbolic. It manages to focus on this act of unconscionable 
violence and still honor the valor of the people of the 
community and the lives of the victims in a setting of 
reflection and peace that should leave people, when they go 
through it, feeling stronger rather than weaker.''
    The people of the General Services Administration were 
personally affected by the suffering, involved in the rescue 
and emergency management efforts and assisted in the re-
establishment of operational capabilities. Now we are proud to 
help with the healing process. The Murrah Federal Building was 
part of the GSA-owned Federal inventory and the child care 
center was part of a nation-wide effort to create childcare for 
Federal workers. Tragically, two of our employees died in the 
attack, and 20 others were injured. Our regional employees were 
particularly distraught since they knew many of the tenants 
from the various agencies housed in the building.
    Immediately following the bombing, GSA employees assisted 
emergency teams with the evacuation of the building while 
Federal Protective Officers established a security perimeter 
around the building for safety precautions and to expedite aid. 
Within hours of the explosion, GSA established a command center 
in Oklahoma City and located space for an Oklahoma City 
Disaster Field Office for the Federal Emergency Management 
Agency and the Department of Justice. By the next morning, 
approximately 50 GSA personnel were on-site assisting in 
critical areas. At the same time, surrounding buildings like 
the Federal Building and Courthouse, one block south of the 
Murrah Building, and the U.S. Post Office and Courthouse, two 
blocks south, also sustained damage and received immediate 
assistance to maximize safety and restore normal operations.
    GSA was able to respond immediately in various ways to the 
Oklahoma City disaster. We either provided services directly or 
coordinated with other agencies and response groups. These 
circumstances were a true test of GSA's preparedness, systems 
and procedures.
    Since this tragedy, the site of the destroyed Murrah 
Building was cleared and stands ready to be transformed from a 
site of pain and sorrow to a site of remembrance and healing. 
GSA fully supports the establishment of Memorial and is 
prepared to transfer the site to an appropriate Federal agency 
or local entity if that is deemed appropriate. At the same 
time, GSA is planning to construct a new Federal building in 
Oklahoma City, as authorized by the Administration and Congress 
and in cooperation with the city.
    The establishment of a National Memorial is the right thing 
to do. GSA supports the establishment of the Memorial and would 
like to work with the Oklahoma delegation, the National Park 
Service, and other agencies and entities to find the 
appropriate way to manage the Memorial.
    Mr. Chairman, this concludes my remarks. I would be happy 
to answer any questions that you and the Committee Members may 
have. Thank you.
                                ------                                


     Statement of Ronald J. Norick, Mayor, Oklahoma City, Oklahoma

    Mr. Chairman and Members of the Subcommittee. I am Ronald 
J. Norick, Mayor of Oklahoma City, Oklahoma. On behalf of the 
members of the City Council, I would like to thank you for this 
opportunity to testify before you today.
    As you know, the bombing of the Alfred P. Murrah Federal 
Building in downtown Oklahoma City on April 19, 1995, 
devastated the lives of Oklahoma City residents in a way unlike 
any other event in the history of the United States. I will 
focus my testimony on the impact the bombing had on Oklahoma 
City and why the proposed legislation is so important to our 
city.
    This legislation will not only benefit Oklahoma City, it 
will benefit all Americans. While this event occurred in 
Oklahoma City, it was an attack on all Americans. It was an 
attack on all people who believe in the principles of this 
nation. People from every state in the Nation as well as 
thousands of people from outside the United States have visited 
the memorial site. Hundreds of people can be found at the site 
every day, in all kinds of weather, at all times of the day and 
night.
    This event touched people not just in the United States, 
but around the world. Thousands of items were sent to my office 
from people from around the world. It has been over 2 years 
since the bombing, visitation and inquiries about the site have 
not declined. Thousands of people visit the site weekly. More 
than a million people have visited the site since the bombing 
leaving a piece of them at the chain link fence that surrounds 
the building footprint. They have left hundreds of thousands of 
items including messages, toys, flowers and shirts off their 
back as they try to express their sympathy, their compassion 
and somehow understand that this could have happened anywhere 
in the United States.
    For reference, the site is not more than a mile from the 
intersection of two of the country's major interstate highways, 
together carrying over 200,000 vehicles daily. Visitation will 
not decrease. The construction of the memorial and learning 
center will result in an increase in visitation, adding impetus 
to the City's efforts to improve the appearance and vitality of 
downtown Oklahoma City.
    This legislation granting National Park status will 
recognize the sacred nature of the site and its significance to 
all Americans. This site of a tragic event has become a special 
place in our nation's identity. It cannot, will not and should 
not be forgotten. This is why the City strongly supports this 
legislation.
    Other than the loss of life, and the accompanying impact on 
the lives of those touched by those losses, the bombing of the 
Alfred P. Murrah Federal Building tore the heart out of our 
city. More than 300 structures were damaged and 12 buildings 
had to be demolished in the heart of our downtown. Rebuilding 
has been difficult as property owners and tenants, forced out 
of the area by damages to their properties, have been reluctant 
to reestablish in downtown Oklahoma City. Many have not had the 
finances. Special funding provided by Congress in 1995 has been 
absolutely vital to our rebuilding process. The recovery has 
been slow, and there still remains a very visible hole in the 
City's fabric.
    The Oklahoma City Memorial, in conjunction with the passage 
of this legislation, will do much to heal that hole. It sends a 
powerful message to the people of Oklahoma City and to the 
Nation that the healing process is well underway, and that 
investment in the renewal of downtown makes good economic and 
civic sense.
    Knowing that within a year, building will begin on a world 
class Memorial on the site of the Murrah Building and that it 
will be designated a National Park, permits the City to be more 
specific in targeting development in the downtown area, 
especially in the severally impacted district surrounding the 
Memorial.
    The redevelopment of several of the larger buildings most 
heavily damaged by the bombing will now be possible. The City 
can also begin planning for traffic control, parking, 
streetscaping, sidewalk improvements, directional signage and 
other public improvements required to cater to the restructured 
business district and visitors to the site. Much of this 
planning has been on hold as the City and property owners have 
struggled with the task of making this area whole again. That 
hold will be lifted by this legislation. Private investors who 
have been holding back until they know the future of the area, 
can also begin their reconstruction plans.
    The City strongly supports this legislation's establishment 
of the Oklahoma City National Memorial Trust. It is vital to 
those most directly affected by the events of April 19, 1995, 
that the story of this tragic event be managed locally. The 
Trust is the best vehicle for doing so.
    Let me say again, the tragedy that befell Oklahoma City on 
April 19, 1995, was not just a tragedy for those of us in 
Oklahoma. It was a tragedy that affected the whole nation. The 
effect of that tragedy is felt no less today, over 2 years 
later. It is only fitting that a tragedy of such national 
significance be recognized as such, and the legislation I speak 
in support of today provides that recognition. The city of 
Oklahoma City strongly supports this legislation, and we will 
be happy to do whatever is necessary to support its passage.
    Thank you Mr. Chairman and members for this opportunity.
                                ------                                

   Statement of Robert M. Johnson, Chairman, Oklahoma City Memorial 
                               Foundation
Mr. Chairman and Members of the Committee:
    My name is Robert M. Johnson. I am the Chairman of the Oklahoma 
City Memorial Foundation, serving as a volunteer pursuant to the June, 
1995 appointment of Oklahoma City Mayor Ron Norick.
    In April 1995, President and Mrs. Clinton came to Oklahoma just 
days following the worst terrorist attack on American soil. The 
President said then:
          ``All of you, the brave people of Oklahoma, made it clear to 
        the entire nation and to the world that the very deeds of those 
        who sought terror to divide us brought us closer together . . . 
        And we'll be right by your side until the work is done.''
    Just one month following the bombing, President Clinton told the 
Nation that in the months ahead, our nation would look to Oklahoma 
again to provide the vision and inspiration to appropriately 
memorialize America's tragedy.
    In response, Mayor Norick created the 350 member Murrah Federal 
Building Memorial Task Force, which is known today as the Oklahoma City 
Memorial Foundation.
    The Foundation embraced the challenge of memorializing a national 
tragedy so unprecedented in American history. We democratized the 
memorial process by making it open and inclusive. There have been no 
political, socio-economic or other barriers to participation. Most 
importantly, we have actively solicited and encouraged and given great 
deference to participation by family members and survivors in all 
aspects of the memorial process. This memorial process has been 
transforming and has contributed to the healing of our city, our state 
and our nation, and most importantly, those most directly affected by 
the tragedy. As one family member said--through the memorial process, 
chaos has been transformed into hope and unity.
    Incredibly, all votes on critical decisions in this process have 
been unanimous, including the one for the adoption of the Memorial 
Mission Statement, which came after several months of receiving input 
from victims' families and survivors and other caring people from all 
over the world. The opening lines of the Mission Statement are:
          We come here to remember those who were killed, those who 
        survived and those changed forever. May all who leave here know 
        the impact of violence. May this Memorial offer comfort, 
        strength, peace, hope and serenity.
    The Mission Statement requires that the Oklahoma City National 
Memorial consist of an interactive learning museum, together with an 
institute dedicated to the prevention of terrorism and violence and 
finally a remembrance component. This last element was created by Hans 
and Torrey Butzer and Sven Berg and was recently selected through an 
international design competition which drew entries from all 50 states 
and 23 countries. This design was chosen on the first secret ballot of 
the Selection Committee by unanimous vote. It was subsequently approved 
by unanimous vote at a joint meeting of the Board and the Families and 
Survivors Committee of the Oklahoma City Memorial Foundation.
    By its very nature, the April 19, 1995 bombing was an attack on the 
American Government and our public servants, and, as such, it was an 
attack on each American. Although the bombing occurred in Oklahoma 
City, the national and international impact and reaction make it clear 
that by no means should this be memorialized as just an Oklahoma City 
or State of Oklahoma tragedy. Equally important is the Federal 
character of the site of the attack and the significant number of the 
victims and survivors who were innocent Federal public servants.
    The Oklahoma City National Memorial will memorialize America's 
Tragedy by preserving the memory of the victims and survivors of the 
tragedy, by emphatically confirming the unification of spirit of all 
Americans in the wake of disaster, and by sending a powerful message to 
the world of the senselessness of terrorism as a means of effecting 
societal or government change.
    Although the response to the Oklahoma City bombing reminded the 
world that Americans are capable of great compassion, selflessness and 
unity when tragedy strikes, our response is not yet complete. We 
respectfully request your participation in the memorialization of 
America's tragedy by enacting H.R. 1849.
    Thank you.
                                 ______
                                 

      Statement of Hans Butzer, Designer, Cambridge, Massachusetts

    Torrey and I will never forget the morning we heard on 
Voice of America radio while in Berlin, that the Alfred P. 
Murrah Federal Building in Oklahoma City had been bombed. 
Although we were an ocean away, we felt shocked that such a 
tragedy could occur on American soil. We also believed it to be 
our duty to make some sort of contribution to the recovery 
efforts.
    The design we are presenting to you is our contribution, 
and is guided primarily by the introductory paragraph of the 
Memorial Foundation's Mission Statement:
        We come here to remember those who were killed, those who 
        survived and those changed forever.
        May all who leave here know the impact of violence.
        May this memorial offer comfort, strength, peace, hope and 
        serenity.
    With these words, the experience of visiting the Oklahoma City 
Memorial begins. Whether traveling along Harvey Avenue or Robinson 
Avenue or along Fifth Street, the first site of the Memorial Complex is 
of the gates of time. Within the urban fabric, these gates provide a 
powerful identity for the Memorial Complex and clearly indicate that 
this portion of Fifth Street has been closed forever. The Eastern gate, 
inscribed with the time ``9:01'', together with the Western Gate 
``9:03'' frame the moment and place of explosion ``9:02.''
    The gates also serve as a transition, both physical and 
psychological, from the busy city streets to a meditative landscape 
rich with soft edges and sounds.
    Beneath the incription ``we come here to remember,'' one is drawn 
through the gate's opening into the heart of the moment 9:02 eager to 
tell its story.
    The footprint of the former Alfred P. Murrah Federal Building to 
the South is covered with soft green grass, sloping up toward the 
warmth of the sun. The 168 empty chairs are on the grassy slope where 
the building once stood, reminding us of those who died. While the 
tragedy has affected the community and nation as a whole, the 168 
individual chairs will remind us of the personal loss which resulted on 
April 19, 1995.
    The chairs' presence will ensure that future generations of 
Americans will always remember these members of our community. The 
chairs are constructed of a stone seat and back mounted atop a glass 
block base which is inscribed with a victim's name. By day, the chairs 
appear to float above their translucent base, just as our memories of 
loved ones seem to float past at any given moment. By night, the glass 
bases will be illuminated, representing beacons of hope which will 
inspire Oklahoma City, its state and the Nation, to rebuild and prepare 
for a better tomorrow.
    The Survivor Tree, witness to the violence of moment, stands to the 
north commemorating those who survived. Under its canopy, grassy 
terraces step down in constrast to the sloping field of 168 chairs 
beyond. Here, visitors may sit and find inspiration to live their lives 
more meaningfully, and better appreciate the freedoms they as survivors 
enjoy.
    Rushing forth the city's edges to surround the Survivor Tree, is an 
orchard of blossoming fruit trees which recognize those who helped. 
Symbolic in their bearing of fruit, these trees allude to the 
continuing life cycle of those rescued and their future generations. 
The harvesting of the fruit in the fall would be the focus on annual 
celebrations honoring those who helped and those who were rescued.
    Nestled in the northwest corner of the orchard is a special place 
for little helpers--the children. A series of chalkboards set in the 
ground represents the many letters and drawings the children sent in 
support, and provides a place for them to continue expressing their 
thoughts and encouragement.
    A long reflecting pool spans what was once Fifth Street. Gently 
flowing water soothes the healing wound caused by the fiery blast. The 
sounds of moving water provide a peaceful background to visitor's 
thoughts. During the hot summer, the pool will provide cool relife. In 
winter, its surface may freeze, reflecting the warm glow of the empty 
chairs. Dark reflective stone will line the pool's surface, making it 
difficult to see the bottom. Water will flow over the edges and 
disappear into a thin channel running around the perimeter of the pool.
    It is here at the water's edge that the areas of the empty chairs, 
the Survivor Tree and its terraces, the fruit tree orchard meet. And as 
visitors gaze at their own reflections, they see the faces of those 
changed forever.
    As you can see from our response, this event touched the world. It 
is our hope that the world will be able to come to the site of this 
event and gain an understanding of what happened on April 19th. I 
respectfully urge your support of H.R. 1849, the bill to establish the 
Oklahoma City National Memorial as a unit of the National Park System 
and designate the Oklahoma City Memorial Trust.
                                 ______
                                 
  Statement of Emmett E. ``Bud'' Welch, Family Member, Oklahoma City, 
                                Oklahoma
    Mr. Chairman and Members of the Committee. I am Bud Welch, my 23 
year old daughter, Julie Marie Welch, was killed April 19, 1995, in the 
Murrah Building Bombing.
    Julie had graduated from Bishop McGuiness High School in 1990 after 
being a foreign exchange student with Youth for Understanding. She 
lived with a family in Pontevedra, Spain for one year between her 
sophomore and junior year in high school.
    She received a foreign language scholarship from Marquette 
University and entered school there in August, 1990.
    Julie had spent her sophomore year in college in Madrid at 
Marquette's campus there. She received her degree in Spanish from 
Marquette with a minor in French and Italian. Julie spoke Spanish, 
French, Portuguese, Italian, English and knew enough German to travel. 
She had graduated from Marquette University in Milwaukee in 1994.
    Julie was the Spanish translator for Social Security. I brought 
Julie back to Oklahoma 4th of July weekend in 1994. She was employed by 
Social Security the following month, she was hired under the Federal 
Government Honors Program.
    Julie Marie was my only daughter, my pal, my confidant and my 
friend.
    I was to meet Julie at 11:30 that fateful Wednesday morning for our 
weekly lunch at the Athenian Greek Restaurant across the street from 
the Murrah Building and west of the Survivor Tree.
    It became very important that the old faithful American Elm, now 
known as the ``Survivor Tree'' be included in the planned Memorial. 
That was Julie's favorite place to park and this tree survived the 
blast that so many people did not. To this day, it is the only 
``living'' thing left on that site.
    Working closely with the Memorial process has helped me 
tremendously in my healing. I look forward to that continuing with 
dialog with strangers once our new beautiful Memorial is built.
    I believe it should be a National Memorial with National Park 
status because:
          (1) The majority of the victims were Federal public servants.
          (2) The crime happened on Federal property and stemmed from 
        what some believe were problems with Federal policies.
          (3) The people of this nation and the people of the world 
        expect the United States of America to recognize this as a 
        national memorial.
    I base that on the thousands of cards, letters and telephone calls 
that I have personally received from more than 30 foreign countries, 
every province in Canada and every State in the Union.
    Let's please don't let the world down. I urge you to support H.R. 
1849 to establish the Oklahoma City National Monument and designate the 
Oklahoma City Memorial Trust.
    Mr. Chairman, thank you for this opportunity. I would be happy to 
answer any questions at this time.
                                 ______
                                 
     Statement of Don Rogers, A.P. Murrah Federal Building Manager 
               (Retired), General Services Administration
    I wish to thank Congressman Frank Lucas and the members of this 
Committee for me to testify on an issue I feel so strongly about.

INTRODUCTION

    I am Don Rogers, Manager of the Alfred P. Murrah Federal Building 
in Oklahoma City on April 19, 1995. I am a Survivor of the bombing, 
injured in the building on the first floor, near the center of the 
building.

BACKGROUND

    I would like to tell you part of my story, which occurred on a date 
that so many of us, will never forget.
    The moment the bomb detonated, I was standing near the elevator 
lobby, having just completed a meeting which was held in my office 
(situated against the glass wall which was the north wall of the 
building where the Ryder truck was parked). I had walked out into the 
hall after the meeting to continue a side discussion with Robert (Bob) 
Dennis, Court Clerk of the US District Court, Western District. 
Quickly, we were engulfed in total darkness--unable to see or breathe. 
I was choking for air when I came to the realization that someone was 
calling my name. Somewhat disoriented and unable to see, I reached 
toward the direction of the voice. In doing so, I was able to grasp 
Bob's arm. Together, we climbed over debris trying to reach safety. It 
was as if we were crawling through a cave, except there was no air to 
breathe nor light to see. Blocked exits and hallways, which we found 
to, no longer existed were conditions that further complicated our 
efforts to find light and fresh air. Beginning to feel somewhat 
``entombed,'' we became determined to find a way out. While we were 
attempting to get out of the building, Bob and I rescued two other 
ladies (Dot Hill and Pam Lacy) who were confusedly moving toward the 
interior of the building. We were able to help them through and we 
found a way through the rubble, to the west side of the building where 
we were able to exit in an area that before had been a loading dock.
    We quickly realized that things were not much better outside of the 
building. The north half of the building had been blown inward; a large 
gaping hole was all that remained of that portion. On the street about 
twenty-five cars were on fire. I was confused as to what could have 
possibly occurred to cause such damage. Realization hit me with the 
impact of yet another blast--I was immediately concerned for my 
employees, the children in the daycare, and the tenants of the building 
I was responsible for managing--where were they? I ran to the south of 
the building to gain entrance and found men using make-shift ladders 
from the playground fences to climb into the building, trying to rescue 
those trapped inside. The east stairwell was blocked by rubble so I 
couldn't continue to higher floors--I went back to the plaza level. 
Looking upward trying to determine the best approach I saw a man pinned 
against the inner south wall, hanging out of the building. The upper 
half of his head was missing, the lower portion of his body was 
completely crushed, yet he raised his head asking for assistance, 
``Help me. Please help me.'' A moment later, his life was gone. The 
Federal workers (survivors of the A.P. Murrah Building and those who 
immediately ran to help from the US Courthouse) who were closest and 
trying to pull him free realized that their efforts for this man were 
in vain . . . nothing could be done. Although my eyes were full of 
smoke, dust, and debris, l have a clear memory of viewing this man's 
losing struggle with death.
    By this time, members of the fire department were arriving to 
assist in the rescue efforts already underway. Again I attempted to 
enter the building in an effort to find employees, children, and 
tenants. Firefighters saw me and insisted that I needed medical 
attention for my eyes and the multiple lacerations.
    I was treated at the local hospital that day, released in the 
afternoon, and returned to the destroyed building to help rescue 
workers search for survivors and assist in identifying bodies. I 
remember thinking that this couldn't be the same building that I had 
worked in for nineteen years, it was difficult identify anything. It 
seemed as though we were going down into a large cavern with debris 
heaped on the ground and hanging from the ceilings.
    I remember seeing one body that did not resemble a person; it was a 
mass of flesh and material embedded in rock and crevices. The fireman 
with me at the time told me that this was a lady wearing a black dress 
imprinted with roses. I remembered that I had seen this woman as she 
stepped off the elevator, walking past me and toward the front doors 
just moments before the blast. This is one of the many horrible 
experiences I had on that day and the days to follow.
    This has affected my family through me. My wife has informed me 
(many times) that I awakened her in the middle of the night, telling 
her that we needed to ``get out of the building.'' I still have 
dreadful dreams and haunting memories every day--these vivid events 
seem to replay over and over in my mind which causes me to question 
``Why'' were so many killed? . . . I wonder ``Why''?
    I attended the sentencing of Timothy McVeigh, the individual tried 
and convicted by his peers as the person responsible for this 
devastating act. It was difficult for survivors and family members 
alike to see this man, convicted of this tragedy, cold-faced with no 
remorse. This was a day that will not be forgotten by those affected by 
the bombing--it seemed as though Mr. McVeigh reduced the tragedy to an 
insignificant loss.

IMPORTANCE OF THE MEMORIAL

    The innocent laughter of the children nor their footsteps (as well 
as that of my friends and coworkers) will never be heard again.
    Life's evening sun has set for 168 Americans, which will not rise 
again on this earth. The contributions of these individuals' to their 
families, communities, local churches and civic groups were ended 
before any of them had the opportunity to do great things. However, 
each of them was considered as ``great'' by family and friends; 
therefore resulting in a great loss to our nation.
    We wish to let the world know that violent acts must be prevented. 
The proposed memorial would provide hope that future violent acts of 
this magnitude can be prevented and serve as a reminder of how people 
can (and should) reach out and care for one another with compassion.
    We, as a nation--as a society, governed by citizens, feel an 
urgency to construct an appropriate memorial in order to remember the 
value of those who perished (infants, children, sisters/brothers, 
parents, grandparents) the strength of the human spirit, and the loss 
of innocence experienced by America on that day.
    Unless we establish this memorial as a national monument to:

        remember those who were killed, those who survived and those 
        changed forever, provide a place for people to gain an 
        understanding of the impact of violence, and provide a place 
        which offers comfort, strength, peace, and hope, the affliction 
        of this American tragedy will be unresolved.
    I would like to take this opportunity to thank my wife, Joyce 
Rogers, and Federal Executive Board Director, LeAnn Jenkins, for 
assisting me in my efforts to testify before this Subcommittee.
                                 ______
                                 
      Statement of Gary Marrs, Fire Chief, Oklahoma City, Oklahoma
    Mr. Chairman and Members of the Subcommittee, I am Gary Marrs, the 
Fire Chief for the Oklahoma City Fire Department. On behalf of the more 
than 1,000 fire fighters in Oklahoma City and those from 43 fire 
departments and a large num-

ber of law enforcement agencies that came from near and far to help in 
the rescue and recovery efforts, I would like to thank you for this 
opportunity to testify before you today.
    As you know, at 9:02 a.m. on April 19, 1995, Oklahoma City was the 
target of a senseless act of terrorism. Within a few seconds, all of 
our lives were changed forever. The tragic loss of life and the 
countless injuries were devastating to our community.
    Seconds after the bombing, a massive response of public safety 
agencies, health care providers and the general public occurred. The 
first arriving fire department personnel from Station 1 were faced with 
an overwhelming rescue operation. Buildings were damaged over a 60 
square block area, and a large number of vehicles were on fire. Major 
structural damage occurred in not only the Federal building, but in a 
26-story, 400 unit apartment building, a six-story office building, a 
three-story office building, a two-story building with a restaurant and 
a basement across the street, and in several buildings in a four-block 
area.
    As we approached the scene, we began encountering debris in the 
road several blocks away from the Murrah Federal Building site. Fire 
fighters began walking in front of the apparatus to move the debris out 
of the roadway. In addition, they began to encounter injured people 
walking away from the blast. A number of our units began to immediately 
treat injured survivors and quickly realized there were going to be 
hundreds more.
    Dozens of rescue and recovery workers formed human chains as we 
began to pass victims from the building into the street. All 
individuals rescued alive from the Murrah Federal Building and the 
surrounding structures were rescued on the first day within the first 
12 hours of the operation. Many of the rescues accomplished that day, 
by Oklahoma City fire fighters and the hundreds who assisted them, 
would have been dramatic events if they had happened individually. The 
fact that they occurred as part of an incident of this magnitude 
overshadowed the hundreds of individual acts of professionalism, and in 
many cases heroism, that occurred that Wednesday in April and the days 
that followed.
    FEMA workers and 11 Urban Search and Rescue Task Force teams came 
to Oklahoma City with hope they could help us find more survivors and 
to help all of us. Today, spread out across the United States, each 
rescuer has an understanding that this event was not just an Oklahoma 
event . . . it was an event that touched the nation. It has reached 
coast to coast.
    The outpouring from people was unbelievable. From the wheelbarrows 
filled with ice and drinks, to a national pizza chain onsite serving 
more than 10,000 free pizzas, to a supply room filled with everything 
from bandanas to rain suits to batteries. We would ask for something 
and people would begin to bring it to the site. People donated clothes, 
food, equipment, and supplies in record numbers to support the rescue 
operations. If a request for some specialized service was made, such as 
veterinarians for the search dogs, the response was immediate and 
overwhelming. More than 1,000 cellular telephones were handed out, free 
to emergency personnel and all the air time was donated by the 
companies.
    Establishing a National Park on the site of this attack is 
appropriate to honor the victims, the survivors and the rescue and 
recovery workers and to show the world the shining example of how a 
community can come together to rise above adversity.
    As Oklahoma City Police Chaplain Jack Poe has said since the 
bombing, the Oklahoma Standard means a new level of caring. The 
Oklahoma City National Memorial will do just that. Mr. Chairman, again, 
thank you for giving me the opportunity to represent all of the brave 
men and women who worked for 18 days under impossible circumstances on 
behalf of our community and our nation.
                                 ______
                                 
 Statement of Hon. Helen Chenoweth, a Representative in Congress from 
                           the State of Idaho
    I want to first thank Chairman Hansen for holding a hearing on H.R. 
1849, a bill that would establish an Oklahoma City National Memorial, 
and an Oklahoma City National Memorial Trust in memory of the victims 
of the Oklahoma bombing tragedy.
    Mr. Chairman, the bombing took the lives of 168 men, women and 
children, injured more than 500 others and forever changed the life of 
countless others. Establishing this memorial and trust fund to the 
victims and the survivors of the Oklahoma bombing is the very least 
Congress can do to help the citizens of Oklahoma and the Nation recover 
from this terrible event. I am pleased that this memorial will be 
unlike any other memorial in that it will be an interactive museum for 
Americans now and in the future to learn and remember the lessons about 
the need-

less loss of life and tremendous suffering that occurred in this wanton 
act of violence. It will also stand as a testament to not only those 
who lost their lives in this tragedy, but also to those many brave 
individuals who took heroic risks to save lives from the dangerous 
wreckage of what was left after the explosion.
    I am looking forward to hearing the testimony of the Oklahoma 
Congressional Delegation, who worked hard to put this excellent piece 
of legislation together. Finally, I am also interested in hearing how 
this unique trust fund and memorial, which will mostly be privately 
funded, is going to be managed. Its success may prove as a template for 
future memorials.
    Again, I thank the Chairman for holding this hearing. What happened 
in Oklahoma City on April 19, 1995 was a very dark day in our nation's 
history. However, through legislative Acts such as H.R. 1849, perhaps 
there is some good to be gained from the lessons learned and the 
bravery witnessed in the amazing aftermath of this experience.


[GRAPHIC] [TIFF OMITTED] T5289.001

[GRAPHIC] [TIFF OMITTED] T5289.002

[GRAPHIC] [TIFF OMITTED] T5289.003

[GRAPHIC] [TIFF OMITTED] T5289.004

[GRAPHIC] [TIFF OMITTED] T5289.005

[GRAPHIC] [TIFF OMITTED] T5289.006

[GRAPHIC] [TIFF OMITTED] T5289.007

[GRAPHIC] [TIFF OMITTED] T5289.008

[GRAPHIC] [TIFF OMITTED] T5289.009

[GRAPHIC] [TIFF OMITTED] T5289.010

[GRAPHIC] [TIFF OMITTED] T5289.011

[GRAPHIC] [TIFF OMITTED] T5289.012

[GRAPHIC] [TIFF OMITTED] T5289.013

[GRAPHIC] [TIFF OMITTED] T5289.014

[GRAPHIC] [TIFF OMITTED] T5289.015

[GRAPHIC] [TIFF OMITTED] T5289.016

[GRAPHIC] [TIFF OMITTED] T5289.017

[GRAPHIC] [TIFF OMITTED] T5289.018

[GRAPHIC] [TIFF OMITTED] T5289.019

[GRAPHIC] [TIFF OMITTED] T5289.020

[GRAPHIC] [TIFF OMITTED] T5289.021

[GRAPHIC] [TIFF OMITTED] T5289.022

[GRAPHIC] [TIFF OMITTED] T5289.023

[GRAPHIC] [TIFF OMITTED] T5289.024

[GRAPHIC] [TIFF OMITTED] T5289.025

[GRAPHIC] [TIFF OMITTED] T5289.026

[GRAPHIC] [TIFF OMITTED] T5289.027

[GRAPHIC] [TIFF OMITTED] T5289.028

[GRAPHIC] [TIFF OMITTED] T5289.029

[GRAPHIC] [TIFF OMITTED] T5289.030

[GRAPHIC] [TIFF OMITTED] T5289.031

[GRAPHIC] [TIFF OMITTED] T5289.032

[GRAPHIC] [TIFF OMITTED] T5289.033

[GRAPHIC] [TIFF OMITTED] T5289.034

[GRAPHIC] [TIFF OMITTED] T5289.035

[GRAPHIC] [TIFF OMITTED] T5289.036

[GRAPHIC] [TIFF OMITTED] T5289.037

[GRAPHIC] [TIFF OMITTED] T5289.038

[GRAPHIC] [TIFF OMITTED] T5289.039

[GRAPHIC] [TIFF OMITTED] T5289.040

[GRAPHIC] [TIFF OMITTED] T5289.041

[GRAPHIC] [TIFF OMITTED] T5289.042

[GRAPHIC] [TIFF OMITTED] T5289.043

[GRAPHIC] [TIFF OMITTED] T5289.044

[GRAPHIC] [TIFF OMITTED] T5289.045

[GRAPHIC] [TIFF OMITTED] T5289.046

[GRAPHIC] [TIFF OMITTED] T5289.047

[GRAPHIC] [TIFF OMITTED] T5289.048

[GRAPHIC] [TIFF OMITTED] T5289.049

[GRAPHIC] [TIFF OMITTED] T5289.050

[GRAPHIC] [TIFF OMITTED] T5289.051

[GRAPHIC] [TIFF OMITTED] T5289.052

[GRAPHIC] [TIFF OMITTED] T5289.053

[GRAPHIC] [TIFF OMITTED] T5289.054

[GRAPHIC] [TIFF OMITTED] T5289.055

[GRAPHIC] [TIFF OMITTED] T5289.056

[GRAPHIC] [TIFF OMITTED] T5289.057

[GRAPHIC] [TIFF OMITTED] T5289.058

[GRAPHIC] [TIFF OMITTED] T5289.059

[GRAPHIC] [TIFF OMITTED] T5289.060

[GRAPHIC] [TIFF OMITTED] T5289.061

[GRAPHIC] [TIFF OMITTED] T5289.062

[GRAPHIC] [TIFF OMITTED] T5289.063

[GRAPHIC] [TIFF OMITTED] T5289.064

[GRAPHIC] [TIFF OMITTED] T5289.065

[GRAPHIC] [TIFF OMITTED] T5289.066

[GRAPHIC] [TIFF OMITTED] T5289.067

[GRAPHIC] [TIFF OMITTED] T5289.068


</pre></body></html>
